Department of Homeland Security
   Ofﬁce of Inspector General

            The State of California’s Management of 

             Urban Areas Security Initiative Grants 

                 Awarded During Fiscal Years 

                       2006 through 2008
 





OIG-11-46                                        February 2011
                                                         Office (!f Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                                         Homeland
                                                         Security

                                    FEB 2 3 lOll
                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of California's
management of Urban Areas Security Initiative grants awarded during Fiscal Years
2006 through 2008. We contracted with the independent public accounting firm Foxx &
Company to perform the audit. The contract required that Foxx & Company perform its
audit according to generally accepted government auditing standards. Foxx &
Company's report identifies eight reportable conditions where State management of the
grant funds could be improved, resulting in 19 recommendations addressed to the
Assistant Administrator, Grant Programs Directorate, Federal Emergency Management
Agency. Foxx & Company also identified two best practices that should be considered
for use by other jurisdictions. Foxx & Company is responsible for the attached auditor's
report dated February 1, 2011, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Anne L. Richards
                                                       L              /!jJL-R/
                                      Assistant Inspect General for Audits
February 1, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of California’s management of the
Department of Homeland Security’s Urban Areas Security Initiative grants for Fiscal
Years 2006 through 2008. The audit was performed in accordance with our Task Order
No. TPD-FIG-BPA-07-0007-0005 dated September 29, 2009. This report presents the
results of the audit and includes recommendations to help improve the State’s
management of the Urban Areas Security Initiative grants. The scope of the audit did not
include an audit of the State Homeland Security Program grants awarded to the State of
California. Those awards were audited and reported in DHS Office of Inspector General
audit report: The State of California’s Management of State Homeland Security Program
Grants Awarded During Fiscal Years 2004 - 2006, OIG-09-33, February 2009.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of California’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations
Executive Summary .......................................................................................................... 1 


Background ....................................................................................................................... 2 


Results of Audit ................................................................................................................ 5 


           Improved Program Results Reporting .................................................................. 5 

           Recommendation ...................................................................................................9 

           Management Comments and Auditor’ Analysis ................................................. 10 


           Increased Investment Oversight .......................................................................... 10 

           Recommendations ............................................................................................... 14 

           Management Comments and Auditors’ Analysis ............................................... 14 


           Delays in Awarding Grant Funds ....................................................................... 15 

           Recommendations ............................................................................................... 17 

           Management Comments and Auditors’ Analysis ............................................... 18 


           Sustaining Capabilities Without Federal Funding .............................................. 18 

           Recommendations ............................................................................................... 22 

           Management Comments and Auditors’ Analysis ............................................... 22 


           Monitoring of Urban Areas Security Initiative Recipients ................................. 23 

           Recommendations ............................................................................................... 25 

           Management Comments and Auditors’ Analysis ............................................... 25 


           Unreported and Unjustified Sole Source Procurements ..................................... 26 

           Recommendations ............................................................................................... 31 

           Management Comments and Auditors’ Analysis ............................................... 31 


           Internal Controls Over Reimbursements ............................................................ 32 

           Recommendation ................................................................................................ 34 

           Management Comments and Auditors’ Analysis ............................................... 35 


           Management of Cash Advances .......................................................................... 35 

           Recommendations ............................................................................................... 37 

           Management Comments and Auditors’ Analysis ............................................... 37 


           Two California Urban Areas Security Initiatives Are Using Innovative 

             Systems That May Be Best Practices ............................................................ 38 

Table of Contents/Abbreviations 

  Appendices
    Appendix A:   Purpose, Scope, and Methodology ..............................................              40 

    Appendix B:   FEMA Management Comments to the Draft Report...................                             44 

    Appendix C:   State of California Management Comments to the Draft Report                                 54 

    Appendix D:   Organization Chart ......................................................................   65 

    Appendix E:   Report Distribution .....................................................................   66 


  Abbreviations
    DHS           Department of Homeland Security
    FEMA          Federal Emergency Management Agency
    FY            Fiscal Year
    OIG           Office of Inspector General
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                    Foxx & Company completed an audit of the State of California’s
                    Management of Urban Areas Security Initiative grants awarded
                    during fiscal years 2006 through 2008. The audit objectives were
                    to determine whether the State distributed and spent the grant
                    funds strategically, effectively, and in compliance with laws,
                    regulations, and guidance. The audit included a review of
                    approximately $421 million in Urban Areas Security Initiative
                    grants awarded by the Federal Emergency Management Agency to
                    the State of California.

                    Generally, the State did an efficient and effective job of
                    administering the program requirements, distributing grant funds,
                    and ensuring that all of the available funds were used. The State
                    used reasonable methodologies for assessing threats,
                    vulnerabilities, and prioritized needs, and measured response
                    capabilities and performance using a variety of techniques
                    including exercises and After Action Reports.

                    Improvements are needed to enhance California’s management of
                    the Urban Areas Security Initiative grants, including better
                    reporting of program results, increasing investment oversight,
                    avoiding delays in awarding grant funds, sustaining capabilities in
                    the absence of federal funds, strengthening monitoring of
                    recipients, promoting fair and open competition in procurement,
                    providing greater oversight over reimbursements, and managing
                    cash advances. We identified two best practices that should be
                    considered for sharing with other jurisdictions. The
                    19 recommendations call for the Federal Emergency Management
                    Agency to initiate improvements which, if implemented, should
                    help strengthen program management, performance, and oversight.

                    Federal Emergency Management Agency officials concurred or
                    partially concurred with all but one recommendation. State
                    officials concurred or partially concurred with all but one
                    recommendation. Written responses to the recommendations from
                    Federal Emergency Management Agency and State officials are
                    included as Appendices B and C.


         The State of California’s Management of Urban Areas Security Initiative Grants

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 1 

Background
                   The Homeland Security Grant Program is a federal assistance grant
                   program administered by the U.S. Department of Homeland
                   Security (DHS), Grant Programs Directorate within the Federal
                   Emergency Management Agency (FEMA). The current Grant
                   Programs Directorate, hereafter referred to as FEMA, began with
                   the Office of Domestic Preparedness, which was transferred from
                   the Department of Justice to DHS in March 2003. The Office of
                   Domestic Preparedness was subsequently consolidated into the
                   Office of State and Local Government Coordination and
                   Preparedness which, in part, became the Office of Grants and
                   Training, and which subsequently became part of FEMA.

                   Although the grant program was transferred to DHS, applicable
                   Department of Justice grant regulations and legacy systems were
                   still used, as needed, to administer the program. For example,
                   through fiscal year (FY) 2008 the Office of Justice Programs’
                   Grants Management System was used to receive grantee
                   applications and to administer the award and reporting processes.
                   Also, prior to the transfer, the State Administrative Agency entered
                   payment data into the Office of Justice Programs’ Phone Activated
                   Paperless Request System, which was a drawdown payment
                   system for grant funds. That payment system was replaced in
                   April 2007 by FEMA’s Payment and Reporting System, which
                   allows grantees to make payment requests and complete and
                   transmit their quarterly Financial Status Reports online.

                   Homeland Security Grant Program

                   The Homeland Security Grant Program provides federal funding to
                   help state and local agencies enhance their capabilities to prevent,
                   deter, respond to, and recover from terrorist attacks, major
                   disasters, and other emergencies. The Homeland Security Grant
                   Program encompasses several interrelated federal grant programs
                   that together fund a range of preparedness activities, including
                   planning, organization, equipment purchase, training, and
                   exercises, as well as management and administration costs.
                   Depending on the fiscal year, the program included some or all of
                   the following programs:

                   •	 State Homeland Security Program supports the
                      implementation of State Homeland Security Strategies to
                      address the identified planning, organization, equipment,
                      training, and exercise needs to prevent, protect against, respond

       The State of California’s Management of Urban Areas Security Initiative Grants
 

                      Awarded During Fiscal Years 2006 through 2008 


                                           Page 2 

                to, and recover from acts of terrorism and other catastrophic
                events.

           •	 Urban Areas Security Initiative program funds address the
              unique planning, organization, equipment, training, and
              exercise needs of high-threat, high-density urban areas, and
              assists them in building an enhanced and sustainable capacity
              to prevent, protect against, respond to, and recover from acts of
              terrorism.

           •	 Law Enforcement Terrorism Prevention Program provides
              resources to law enforcement and public safety communities
              (working with their private partners) to support critical
              terrorism prevention activities, including: establishing or
              enhancing fusion centers and collaborating with non-law
              enforcement partners, other government agencies, and the
              private sector.

           •	 Citizen Corps Program mission is to bring community and
              government leaders together to coordinate the involvement of
              community members and organizations in emergency
              preparedness, planning, mitigation, response, and recovery.

           •	 Metropolitan Medical Response System Program funds
              support designated jurisdictions to further enhance and sustain
              a regionally integrated, systematic mass casualty incident
              preparedness program that enables a response during the first
              crucial hours of an incident. The program prepares
              jurisdictions for response to all-hazards mass casualty
              incidents, including chemical, biological, radiological, nuclear,
              and explosive terrorism, epidemic disease outbreaks, natural
              disasters, and large-scale hazardous material incidents.

           State Administrative Agency

           The governors of each state appoint a State Administrative Agency
           to administer the Homeland Security Grant Program. The State
           Administrative Agency is responsible for managing the grant
           programs in accordance with established federal guidelines. The
           State Administrative Agency is also responsible for allocating
           funds to local, regional, and other state government agencies.
           In 2004, California’s Governor designated the Office of Homeland
           Security to be the State Administrative Agency for the Homeland
           Security Grant Program. In 2009, the California Office of
           Homeland Security and the Office of Emergency Services were

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 3 

           merged to become the California Emergency Management
           Agency. The California Emergency Management Agency is
           responsible for administering all of the Homeland Security Grant
           Program grants included in our audit scope. The Agency’s
           organizational structure is depicted in Appendix C.

           For the FY 2006 through 2008 grant programs, California had six
           Urban Areas Security Initiatives: Anaheim-Santa Ana, Bay Area,
           Los Angeles-Long Beach, Riverside, Sacramento, and San Diego.

           Grant Funding

           The State of California received approximately $735 million in
           funds from the Homeland Security Grant Program during
           FYs 2006 through 2008. As part of this program, the State
           received $421 million in Urban Areas Security Initiative grants.
           Table 1 shows the Urban Areas Security Initiative grant funds
           awarded to each of California’s six Urban Areas Security
           Initiatives for the years covered by this audit. One of the urban
           areas (Riverside) did not receive grant funds during FYs 2006 and
           2007.

                                                Table 1
                          California Homeland Security Grant Program
                             Urban Areas Security Initiative Awards
                                     FYs 2006 through 2008
              Urban Areas         FY 2006        FY 2007         FY 2008            Total
             Anaheim-Santa
             Ana                $11,980,000     $13,840,000     $13,425,000       $39,245,000
             Bay Area           $28,320,000     $34,130,000     $37,155,000       $99,605,000
             Los Angeles-
             Long Beach         $80,610,000     $72,580,000     $70,402,500 $223,592,500
             Riverside                     $0             $0     $3,251,500        $3,251,500
             Sacramento           $7,390,000     $4,170,000      $4,045,000       $15,605,000
             San Diego            $7,990,000    $15,990,000     $15,510,500       $39,490,500
                         Total $136,290,000 $140,710,000 $143,789,500 $420,789,500

           Foxx & Company completed an audit of the State of California’s
           management of DHS’ Urban Areas Security Initiative grants
           awarded during FYs 2006 through FY 2008. The objectives of the
           audit were to determine whether the State distributed and spent
           Homeland Security Grant Program funds strategically, effectively,
           and in compliance with laws, regulations, and guidance. Nine
           researchable questions provided by the DHS Office of Inspector
The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 4 

                    General established the framework for the audit. The researchable
                    questions were related to the State Administrative Agency’s
                    planning, management, and evaluations of grant activities.
                    Appendix A provides additional details on the purpose, scope, and
                    methodology of this audit, including the nine researchable
                    questions.

Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Required Improvements
          Generally, the State did an efficient and effective job of administering the
          program requirements, distributing grant funds, and ensuring that all of the
          available funds were used. The State used reasonable methodologies for
          assessing threats, vulnerabilities, and prioritized needs, and measured
          response capabilities and performance using a variety of techniques
          including exercises and After Action Reports.

          Improvements are needed to enhance California’s management of the
          Urban Areas Security Initiative grants, including:

               •    Better reporting of program results
               •    Increasing investment oversight
               •    Avoiding delays in awarding grant funds
               •    Sustaining capabilities in the absence of federal funds
               •    Strengthening monitoring of recipients
               •    Promoting fair and open competition in procurement
               •    Providing greater oversight over reimbursements
               •    Managing cash advances

          We identified two best practices that should be considered for sharing with
          other jurisdictions. We are making 19 recommendations which, if
          implemented, should help strengthen program management, performance,
          and oversight.

     Improved Program Results Reporting
          The State of California cannot demonstrate with sufficient precision that
          Urban Areas Security Initiative grant funds are being effectively used
          because the State does not have a system in place to measure the benefits
          produced by grant-funded programs. State officials have not completed a
          measurement system to track and report, in quantifiable and measurable
          terms, how well the Urban Areas Security Initiative grant funds were spent

        The State of California’s Management of Urban Areas Security Initiative Grants
 

                       Awarded During Fiscal Years 2006 through 2008 


                                            Page 5 

  on programs to improve the preparedness of first responders, address
  threats, or close capability gaps. As a result, decisions regarding ongoing
  programs and new programs similar to ongoing programs were made
  without adequate information on the programs’ demonstrated value.

  Federal agencies are required by the Government Performance and Results
  Act of 1993, to measure and report on the results of their programs. The
  Act provides a model of how federal agencies should measure the results
  of their programs. Code of Federal Regulations Title 44 § 13.40,
  Monitoring and reporting program performance, requires that grantees
  monitor grant and subgrant supported activities to assure that performance
  goals are being achieved. In addition, Department of Homeland Security
  State and Urban Area Homeland Security Strategy Guidance on Aligning
  Strategies with the National Preparedness Goal, dated July 22, 2005, states
  that an objective sets a tangible and measureable target level of
  performance over time against which actual achievement can be
  compared, including a goal expressed as a quantitative standard, value or
  rate. Therefore, an objective should be:

       •	 Specific, detailed, particular, and focused — helping to identify
          what is to be achieved and accomplished;
       •	 Measurable — quantifiable, providing a standard for comparison,
          and identifying a specific achievable result;
       •	 Achievable — the objective is not beyond a State, region, 

          jurisdiction, or locality’s ability; 

       •	 Results-oriented — identifies a specific outcome; and
       •	 Time-limited — a target date exists to identify when the objective
          will be achieved.

  The Urban Areas Security Initiative subgrantees reported program results
  and outcomes in such general terms that an assessment of the program
  benefits was not possible. The California Emergency Management
  Agency managed grant-funded activities mainly on the basis of
  compliance with grant requirements and the timely expenditure of funds,
  not on specific program results. Information on program results is
  important because California received over $400 million in Urban Areas
  Security Initiative grants in the 3 years included in the scope of our audit.
  The intent of the grants was to improve first responder preparedness and
  response capability. Without clear performance measures, there was no
  assurance these funds were well spent.

  To illustrate how information on program results could be established, an
  urban area purchased an automatic license plate reader system for
  $6.2 million with FYs 2006 through 2008 Urban Areas Security Initiative
  grant funds. The license plate reader system included cameras that search

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 6 

  for and capture images of license plates. Information from the cameras,
  mounted on the roofs of police vehicles, was sent to a central processor
  that looked for license plate numbers of interest. An alert was transmitted
  back to the police vehicle when a target plate of interest was found. The
  system was used to locate stolen cars, to identify vehicles associated with
  criminal activity such as excessive parking tickets, and for other purposes.
  Measuring the contribution this program made toward first responder
  preparedness might include data on the number of stolen vehicles
  recovered or suspects apprehended, and how the system identified or
  contributed to the prevention or investigation of terrorist attacks.
  However, neither the State nor the urban area had established such
  indicators.

  The California Urban Areas Security Initiative grant program procedures
  created three main opportunities for reporting program results:
  (1) Investment Justifications, (2) the Urban Areas Security Initiative
  proposed expenditure plan, and (3) monitoring reviews of Urban Areas
  Security Initiative activities. Our review of each of the three areas noted
  the following:

  Investment Justifications: Investment Justifications prepared by the State
  are a principal part of the annual applications for grant funds. However,
  the Investment Justifications did not indicate how the success of the
  justified program would be measured. The standard format for Investment
  Justifications contained a section requiring applicants for grant funds to
  describe the impact of proposed programs. The Investment Justifications
  asked applicants to state what outcomes would indicate that the investment
  would be successful at the end of the grant performance period and how
  the outcomes would be measured. The Investment Justification
  instructions indicated, among other things, that proposed investments
  would be judged on specific outcomes that would determine the
  investment’s success. We reviewed 10 of the 16 application packages for
  Urban Areas Security Initiative funds during FYs 2006 through 2008.
  None of the Investment Justifications in the 10 application packages
  contained performance standards (measures) that would facilitate
  judgments about whether programs had been successful or how well the
  programs were addressing first responder preparedness, capability gaps, or
  threats. Although responsible for approving the Investment Justifications,
  the State did not ensure that the Investment Justifications included
  performance standards for measuring accomplishments.

  Urban Areas Security Initiative Expenditure Plans: Urban Areas
  Security Initiative expenditure plans and reports did not describe the
  impact of program expenditures on preparedness or response capabilities.
  The California Emergency Management Agency approved program

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 7 

  spending plans proposed by Urban Areas Security Initiatives at the time
  grant funds were awarded and later approved reimbursement for approved
  spending through a review of electronic “workbooks” submitted by the
  urban areas. These workbooks did not call for or contain the kind of
  performance measures required by the Government Performance and
  Results Act and other federal requirements. The workbooks were
  designed to assure that the urban areas complied with grant requirements
  such as whether costs were allowable and purchased equipment was on the
  authorized equipment list.

  Monitoring Reviews: The State of California Emergency Management
  Agency is responsible for monitoring urban area grant-funded programs.
  However, it focused primarily on grant-related administrative and
  financial requirements and not on measuring improvements or the
  achievement of program goals. Also, no state-level monitoring of the
  FYs 2006 through 2008 Urban Areas Security Initiative grant funds had
  occurred at the conclusion of our audit fieldwork.

  Measuring ongoing results for some long term programs, such as a new
  interoperable communications system, may require interim measures until
  the system is fully operational. In the interim, measuring the success of
  spending for these programs could be focused on program planning,
  progress reports on cost control, adherence to completion schedules, and
  quality of work performed by contractors. However, we believe for many
  programs, measures of outcomes would be feasible soon after grant funds
  were used.

  The following table lists large programs (more than $1 million) funded by
  one or more of the California urban areas and the possible metrics that
  could be used to measure outcomes. The list is for illustration and is not
  meant to be comprehensive.




The State of California’s Management of Urban Areas Security Initiative Grants
 

               Awarded During Fiscal Years 2006 through 2008 


                                    Page 8 

                                           Table 2
                       Urban Areas Security Initiative Programs
                             and Possible Outcome Measures
      Program                  Function              Possible Results Metric
    Video                                      Decrease in criminal activity;
                       Monitor street or
    Surveillance                               suspicious activity observed and
                       facility activities
    Systems                                    investigated
                                               Student hours of training
    Training
                       Train first responders  accomplished; proficiency levels
    programs
                                               attained
    Infrastructure     Protect key community
                                               Number of sites hardened
    protection         resources from attack
                       Inform the public of    Frequency of use; speed and
    Public alert
                       emergencies through     capacity of systems in relation to
    systems
                       telephone messages      costs
    Mass               Prepare for mass        Number of jurisdictions that
    Evacuation         evacuations of a        prepared evacuation plans; number
    Planning           jurisdiction            of training events

  State officials advised us of the difficulty encountered in developing the
  measures called for by federal requirements. According to State officials,
  the State is engaged in developing a detailed measurement system that
  could, when it is deployed, provide more detailed measures of
  preparedness improvements for specific areas. They told us that this effort
  is complex and the State has not received much guidance from FEMA.
  State officials acknowledged that the measurement system has been in
  development for several years.

  In the State’s comments on a similar finding in the February 2009 DHS
  Office of Inspector General audit report, State officials said that they were
  in the process of implementing a statewide metrics program for collecting
  data on emergency resources and capabilities. State officials said at that
  time that they expected to have most of the data collected by January
  2009. The State was still developing the metrics in calendar year 2010
  when we were conducting the current audit of the Urban Areas Security
  Initiative grants.

  Recommendation
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #1: Develop meaningful metrics for measuring
           program results, collect results measurement data from


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 9 

               subrecipients, and include these metrics in Investment
               Justifications and program funding approval deliberations.

     Management Comments and Auditors’ Analysis
               FEMA partially concurred with this recommendation noting that
               California is in the process of developing a metrics system to help
               measure program results. FEMA has agreed to follow-up with the
               State within 6 months after the final report is published to request
               information on the progress being achieved with the metrics
               project.

               The California Emergency Management Agency agreed with this
               recommendation and stated it would work with FEMA to develop
               additional guidelines and/or performance measures to be used
               during the grant investment justification process. The State has
               also updated its Site Visit form used by State grant monitors to
               document progress made in achieving goals and objectives for
               each project.

               We believe the State’s metric system once deployed, together with
               specific efforts to assign performance measures to large investment
               projects and periodic monitoring of progress achieved, will
               positively respond to this recommendation.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendation and a plan to
               implement the recommendation within 90 days.

Increased Investment Oversight
     The California Emergency Management Agency’s oversight of some of
     the Urban Areas Security Initiatives major investments did not result in
     effective and efficient stewardship of federal grant funds. Despite the
     State’s review of proposed grant-funded programs, at least 6 of the 50
     programs we examined did not provide the expected or intended benefits
     for first responders. This occurred primarily because the State’s review
     process did not consider whether the subgrantee adequately planned or
     documented that the equipment acquired for the programs provided the
     best value for the grant funds expended. As long as the program
     equipment met the minimum grant requirements of being listed on the
     Authorized Equipment List, the State approved the program. In some
     cases, local program planning was insufficient, untested, and failed to
     consider the real needs of the jurisdiction. As a result, program results
     were disappointing in some cases and left critical needs unmet, even

   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 10 

  though the urban areas spent millions of dollars of grant funds on the 

  programs. 


  Appendix A to the Code of Federal Regulations Title 2 § 225, Grants and
  Agreements, states that the application of general principles for
  determining allowable costs is based on the fundamental premises that
  those Governmental units:

       •	 Are responsible for the efficient and effective administration of
          Federal awards through the application of sound management
          practices; and

       •	 Assume responsibility for administering Federal funds in a manner
          consistent with underlying agreements, program objectives, and
          the terms and conditions of the Federal award.

  Following are five examples where lack of major investment oversight
  resulted in inefficient or ineffective program results:

  Fusion Center Software: An urban area purchased a specialized software
  program for its Fusion Center to evaluate criminal incidents obtained from
  local law enforcement data files. The software cost more than $700,000,
  but did not perform as well as the supplier indicated it would. After about
  15 months of use the Fusion Center Director said the system did not
  provide all of the functionality needed by the Center. Subsequently, the
  Fusion Center replaced the software program with another software
  program costing $1,250,000.

  Reverse 911 System: Two urban areas bought reverse 911 systems that
  when implemented did not meet the urban areas’ needs. One of the urban
  areas purchased a reverse 911 system that was not capable of providing a
  timely warning message to citizens. It was only capable of reaching about
  5,000 home-based telephones per hour, even though there were more than
  32,000 homes with telephones in the area being tested that would have
  needed the warning in a more urgent, timely manner. A test conducted by
  the urban area of this small section of the city that contained the 32,000
  telephones showed that it would take over 6 hours to call the residents.

  Furthermore, alternatives already existed to serve this purpose. For
  example, if this system was needed to alert residents of a pending disaster
  (e.g., a bomb threat) in the 6 hours, it is very likely public news sources
  would have the news on the air via radio or television well before the
  residents were notified by the reverse 911 system. Even though a faster
  broadcast rate could have been purchased at an added cost, the system
  relied on home-based telephones when many people rely on cell phones

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 11 

  for their primary telecommunications. Another urban area in California
  had previously bought a similar system, but was abandoning it to buy a
  different system following a local area test and determining that the results
  for the reverse 911 system were poor. The new system offered more
  capability, speed, and coverage. The investment in the original system
  was approximately $178,000.

  Office Space Lease: Another urban area spent approximately $4.4 million
  of FYs 2006 through 2008 grant funds to lease office space in a large,
  specially secured building (to accommodate the collocated Fusion Center),
  for the urban area’s administrative offices, Emergency Operations Center
  training, and several training classrooms. The urban area classified these
  expenditures as training, which was approved by the State. However, we
  found that the Emergency Operations Training Center accounted for more
  than half of the lease cost and was seldom used. The other classrooms
  were used only 2 or 3 days per week for training and the Urban Areas
  Security Initiative records did not always show how often the classrooms
  were used for FEMA approved training. Only FEMA approved training is
  eligible for grant funding. Because the grant awards for this urban area
  have declined significantly, the lease expense became the primary use of
  the Urban Areas Security Initiative grant funds in FYs 2007 and 2008,
  which is not the best use for the majority of the grant funding for FYs
  2007 and 2008.

  Personal Protective Equipment: Two urban areas used different
  strategies in acquiring a new version of a protective suit to shield first
  responders against chemical, biological, radiological, nuclear, and
  explosive hazards. The purchases were made to (1) replace existing stocks
  of protective suits with expiring shelf lives, and (2) provide first
  responders with suits meeting recently updated FEMA standards.

  The two urban areas used different strategies to determine how many suits
  to buy. One urban area bought more than 5,400 suits at a cost of
  approximately $2 million as soon as the new design became available.
  This single purchase was enough to equip most of the first responders in
  its jurisdictions, but did not fully consider the limited number of first
  responders that really required these suits. The second urban area
  purchased 400 suits at a cost of approximately $426,795 to outfit the
  region’s special teams of chemical, biological, radiological, nuclear, and
  explosive specialists.

  The costs of these two strategies are significantly different. Although each
  purchase was approved by the State, there was no documentation available
  to support the rationale for allowing one urban area to purchase suits for


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 12 

  all first responders versus only purchasing suits for a specified type of first
  responder at a significantly lesser cost.

  Our discussions with program managers revealed that urban areas need to
  assess the threat and likelihood of a chemical, biological, radiological,
  nuclear, and explosive event, determine how many suits are needed to
  address this threat, and prepare a regional response plan for strategically
  distributing and storing the suits for best response before acquiring the
  suits. The urban areas should also consider staggered purchases to avoid
  major replacement costs in a few years when the shelf life for these suits
  expires.

  Training Equipment: Another urban area acquired 55 large screen digital
  televisions costing $74,394 as part of a new training system for its Fusion
  Center to facilitate training of intelligence analysts and others working in
  the Center, which was justified to the State as a total training package. We
  visited this Fusion Center, discussed this system and other equipment with
  the Center Director, and examined the equipment. We learned that the
  Center had purchased the televisions, but had not purchased the planned
  training system. The Center Director told us the priority of the training
  system was being reviewed and it may not be purchased. On the day we
  visited, all of the televisions were being used to monitor the same
  television station. The Center Director told us televisions like these are a
  standard element in most Fusion Centers. However, without the training
  system, the original justification for purchasing the televisions was not
  valid.

  First responders in subgrantee organizations are called upon to make
  important decisions about new, sometimes untried, and expensive
  technologies. We believe that the examples above show that the
  subgrantees could benefit from the help of State experts in making these
  decisions. Program leaders are often skilled law enforcement officers,
  firefighters, or emergency managers skilled in something other than
  purchasing. These program leaders can struggle with detailed
  specifications, claimed benefits, warrantees, compatibility issues, prices,
  and a myriad of other product issues. With limited time to research
  product literature and independent test results, if any are available,
  program leaders are often forced to rely on manufacturers’ claims to guide
  their purchase decisions. If the product is a great success or falls short of
  expectations, there is no readily available way to get the word out to other
  jurisdictions. (See our Best Practice discussion regarding the San Diego
  Regional Technology Center and its Technology Clearinghouse.)

  While the State staff reviewed and approved each of these programs, the
  State’s staff was small and focused on compliance with grant rules and

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 13 

  procedures, not the merit, value, or effectiveness of a particular program.
  Each year the staff reviewed and considered hundreds of programs from
  the six urban areas involving nearly $150 million. The same staff also
  managed other Homeland Security grants for many other California
  subgrantees. The State staff advised us that they do not have the resources
  to perform due diligence on each and every program proposed by the
  urban areas. Therefore, if a piece of equipment is on the authorized
  equipment list and the program paperwork is in order, the program is
  approved for funding. This was the case for the five examples described
  above.

  Poor investments waste resources and reduce the benefits first responders
  and the urban areas they protect can derive from grant funds. Together,
  the programs noted above cost millions of dollars and did not provide full
  value to first responder organizations. All of these investments could have
  been identified as poor investments when initially proposed or at the
  approval stage. The missing element was informed grantee oversight.
  Program outcomes would be improved if the subgrantees had better
  technical knowledge as they consider new and complex technology or
  evaluate the impact of proposed programs on first responder needs.

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #2: Establish and apply a meaningful review
           process designed to disclose the value and utility of proposed
           equipment and systems during the Investment Justification review
           and the expenditure plan approval processes.

           Recommendation #3: Develop and disseminate guidance to
           California Urban Areas Security Initiatives specifying the
           importance of efficient and cost effective use of grant funds to
           improve first responder preparedness.

  Management Comments and Auditors’ Analysis
           FEMA partially concurred with recommendation 2. FEMA
           suggested that California revise current grant monitoring policy to
           include the addition of quantifiable goals/criteria to determine the
           effectiveness of each grant. FEMA’s Region IX staff also
           reviewed the draft report and suggested that the report specifically
           identify the UASI responsible for the conditions reported. FEMA

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 14 

               did not concur with recommendation 3. FEMA indicated in their
               written comments that current guidance and oversight provided by
               FEMA is sufficient to assure California’s use of grant funds is
               efficient and cost effective.

               The California Emergency Management Agency agreed with both
               recommendations and is considering adding performance measures
               like those discussed in this report to their grant management
               process. Also, the State will develop and disseminate guidance to
               the UASIs and all subgrantees specifying the importance of
               efficient and cost effective use of grant funds to improve first
               responder preparedness.

               The California Emergency Management Agency’s plan to expand
               its guidance and add performance measures to the grant proposal,
               management and monitoring processes will provide a positive
               response to these recommendations.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendations and a plan to
               implement the recommendations within 90 days.

Delays in Awarding Grant Funds
     Although the California State Administrative Agency awarded Urban
     Areas Security Initiative grant funds to an urban area within the time limit
     specified by FEMA for the FYs 2006, 2007, and 2008 grants, the urban
     area did not make these grant funds available to subrecipients for
     15-18 months after the funds were received. As a result, expenditures for
     approved programs were delayed, the FYs 2006 and 2007 Urban Areas
     Security Initiative grant performance periods were extended, and
     administrative costs increased. Most importantly, these delays prevented
     timely delivery of needed plans, equipment, exercises, and training to first
     responders.

     FEMA Information Bulletin No. 257, dated July 17, 2007, states that it is
     important to ensure that funds are obligated and expended in a timely
     manner, within established periods for performance. In addition, FEMA’s
     Program Guidance for the FY 2008 Homeland Security Grant Program
     states that FEMA strongly encourages the timely obligation of funds from
     local units of government to other subgrantees.

     FEMA grant guidance specifies that only the California State
     Administrative Agency, as grantee, is eligible to apply for Homeland
     Security Grant Program funds, including Urban Areas Security Initiative

   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 15 

  grants. FEMA requires the grantee to make approved funds available to
  local units of government and other designated recipients within either
  60 days (FYs 2006 and 2007 grants) or 45 days (FY 2008 grants) after
  receiving the award from DHS. FEMA grant guidance emphasized to the
  states that Homeland Security Grant Program funds need to be awarded
  promptly to Urban Areas Security Initiatives and subrecipients so that
  needed plans, equipment, exercises, and training can be acquired and
  provided expeditiously to first responders.

  As shown in Table 3, the subrecipients of one urban area waited
  17 months for FY 2006 grant funds to be made available after the grant
  award date. Funds were made available for the FY 2007 grant in about
  15 months. For FY 2008, grant funds were made available in April 2010
  or about 18 months after the FY 2008 grant performance period began.

                                           Table 3
                     Urban Areas Security Initiative Grant Awards
                               FYs 2006 through 2008

                                  Receipt of Grant Funds
                            Urban
                                                      Months between Awards to
                             Areas
     FY       Grantee                  Subrecipient      Urban Areas Security
                           Security
                                                     Initiative and Subrecipients
                           Initiative
     2006     06/30/06     08/15/06        01/25/08                   17 months

     2007     08/13/07     10/16/07        01/14/09                   15 months

     2008     09/08/08     10/23/08        04/06/10                   18 months

  By contrast, other California Urban Areas Security Initiatives made grant
  funds available to subrecipients a few weeks after receiving the grant
  award.

  The urban area in question did not promptly make grant funds available to
  subrecipients for the following reasons:

       •	 The local unit of government for the urban area did not promptly
          approve the purpose, uses, and associated obligations of the grants,
          and

       •	 The grant manager’s office and the subrecipients did not timely
          sign a detailed contract specifying the terms and conditions of the
          grants and the obligations of the subrecipients.



The State of California’s Management of Urban Areas Security Initiative Grants
 

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 16 

  The Urban Areas Security Initiative officials said that obtaining approval
  of the local unit of government usually took about 4 months. For the
  FY 2006 grant, the local unit of government took nearly a year to approve
  the use of the grant funds. Negotiating and signing the required contract
  between the grant manager’s office and the subrecipients took longer,
  because of the length of the contract (currently contains 139 pages) to
  describe the grants and the respective obligations of the grant manager’s
  office and the subrecipients. The grant officials said that much of the
  delay caused by this process was unnecessary wrangling over word
  changes that had no impact on the conduct of the grant. The urban area
  grant officials said that the local unit of government and the subrecipient
  agencies receiving grant funds carefully negotiate the wording of the
  contract. As a result, there was much back and forth discussion before the
  contracts were signed. The Urban Areas Security Initiative managers said
  that this could be accomplished more quickly if the parties assigned the
  process a higher priority.

  Because of the long delays in making funds available, the subrecipients
  have not been able to spend the grant funds within the original
  performance period of the grants. As a result, the Urban Areas Security
  Initiative managers have requested and received multiple performance
  period extensions from FEMA. Specifically, the urban area has requested
  and received 13 project extensions for the FY 2006 grant. It had currently
  been extended until September 30, 2010, about 2 years longer than
  originally approved. The FY 2007 grant has been extended another year
  until April 2011. The urban area’s staff advised us that they expect to
  request additional extensions for both the FYs 2007 and 2008 grants to
  ensure subrecipients can spend approved funds effectively.

  Subrecipient program managers told us lengthy grant approval delays
  disrupt the procurement process, and delay timely delivery of grant-funded
  plans, equipment, and services. The delays also add to the cost of
  managing the programs.

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #4: In consultation with the Urban Areas
           Security Initiative managers, identify process changes to accelerate
           the grant award approval process to the Urban Areas Security
           Initiative subrecipients.


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 17 

               Recommendation #5: Establish a timeframe for the urban area to
               make grant funds available to subrecipients for future Urban Areas
               Security Initiative grants, consistent with the experience of other
               California Urban Areas Security Initiatives.

               Recommendation #6: Improve the oversight process for assuring
               Urban Areas Security Initiative compliance with the timeframes.

     Management Comments and Auditors’ Analysis
               FEMA partially concurred with recommendations 4, 5, and 6,
               noting that timely distribution and dissemination of grant funds is
               critical to the success of the Homeland Security Grant Program.
               FEMA has also recommended California implement guidance,
               policies and processes to ensure timely distribution of grant funds.

               The California Emergency Management Agency agreed with
               recommendations 4, 5, and 6 and stated it will increase its
               oversight and collaboration with its Urban Areas Security
               Initiatives to assure that grant funds are distributed promptly. The
               State also plans to establish specific timelines to help monitor grant
               fund distribution so that timely intervention can occur.

               We believe the actions proposed by the California Emergency
               Management Agency address the intent of this recommendation,
               but further action will be needed to assure timely compliance.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendations and a plan to
               implement the recommendations within 90 days.

Sustaining Capabilities Without Federal Funding
     The State of California did not prepare contingency plans addressing
     potential funding shortfalls if DHS funding was significantly reduced or
     eliminated. Funding shortfalls could put at risk critical programs intended
     to respond to terrorist acts and various catastrophes. According to Fusion
     Center Directors, the Centers would be closed if federal funds were not
     available because neither the State nor local communities could allocate
     the resources needed to operate the Centers. Similarly, three large
     regional communications systems would be at risk because the urban areas
     did not have an assured source of funds to complete and operate the
     systems. The California Emergency Management Agency has not
     identified funding sources to sustain Fusion Centers or to complete the


   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 18 

  regional communications projects if federal funds were diminished or 

  discontinued. 


  Department of Homeland Security Guidance and Application Kits for
  Homeland Security Grant Program FYs 2007 through 2008 grants
  required the states to identify their long term approach for sustaining the
  capabilities acquired through grant fund investments. The Homeland
  Security Grant Program receives funds through annual appropriations.
  The amount appropriated varies from year-to-year and is not guaranteed
  for any future year. Each grant program has specific appropriations and
  periods of performance within which the funds must be used. Grantees
  may only fund investments that were included in a specific year’s
  Investment Justifications that were submitted to DHS and evaluated
  through the agency’s peer review process.

  The DHS funding provided to grantees through the Homeland Security
  Grant Program over the past several years has created a perception that
  this funding will continue indefinitely as would be the case for entitlement
  programs, such as Medicare and Social Security. Unlike entitlement
  programs, the annual appropriations for the Homeland Security Grant
  Program are based on budget justifications provided to the Congress by
  DHS. Critical programs at risk during funding shortfalls include Fusion
  Centers and Regional Communication Systems.

  Fusion Centers: California has established intelligence collection and
  analysis Fusion Centers in Sacramento, San Francisco, Anaheim,
  Los Angeles, San Diego, and a State Center in Sacramento. These Centers
  are designed to bring together federal, State, and local law enforcement
  personnel and systems to help identify and prosecute organized drug,
  gang, and cross-border crime as well as to identify and prevent terrorist
  acts. Since 2005, California and its Urban Areas Security Initiatives have
  invested millions of dollars to furnish, equip, and operate these Centers,
  including the salaries, training, and associated overtime expenses of
  Intelligence Analysts. For example, one Fusion Center received
  $17.4 million from the Urban Areas Security Initiative’s FYs 2006
  through 2008 grants.

  According to the Fusion Center Directors, DHS and the California
  Emergency Management Agency strongly encouraged establishing the
  Fusion Centers. The Fusion Centers integrate criminal and terrorism
  threat intelligence and provide for intake, analysis, fusion, synthesis, and
  dissemination of that information. Each Center has a different mix of
  participating agencies that generally include the Federal Bureau of
  Investigation, Drug Enforcement Administration, Coast Guard, port
  authorities, County Sheriff, local police, and others.

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 19 

  In addition to intelligence collection and analysis, each Center organizes
  the Terrorism Liaison Officer program for their region. This program
  trains law enforcement officers and other first responders to identify
  potential terrorist acts and properly report the information to Fusion
  Center staff. The California State Administrative Agency strongly
  promotes local participation in the Terrorism Liaison Officer program, and
  even required all local jurisdictions that apply for Homeland Security
  grant funds to be fully enrolled in the program as one of the conditions for
  receiving funds.

  Fusion Center Directors said their products are highly regarded by the
  State’s law enforcement community. In particular, they cited the benefits
  to law enforcement outcomes such as arrests and prosecutions provided by
  collocating representatives from cooperating agencies. We asked Fusion
  Center Directors and California Emergency Management Agency officials
  about the ability of the local regions to operate and maintain these Centers
  if federal grants were reduced or eliminated. The Directors said the
  Centers are costly and the local communities could not support the Centers
  without federal Homeland Security or similar grants. These officials
  noted that if these grants were significantly reduced or eliminated, the
  Centers would close and much of the investment to establish the Centers
  would be lost. However, Center Directors told us that there is an
  unwritten understanding with the Department of Homeland Security
  Office of Information that the Centers will be funded through the grant
  program indefinitely.

  Regional Communications Systems: Three California Urban Areas
  Security Initiatives have adopted comprehensive plans to replace or
  significantly upgrade existing public service communications systems.
  These communities are relying wholly or in large part on Homeland
  Security grant funds to develop the plans, conduct the design studies, and
  purchase initial infrastructure equipment. Two of the urban areas
  estimated that these systems were expected to cost more than $1 billion
  dollars. Neither one of these entities have a firm plan for obtaining
  funding from local sources for the hundreds of millions of dollars needed
  to complete acquisition of the systems and to operate the systems.

  California has invested nearly $350 million of the Homeland Security
  Grant Program funds received from FYs 2003 through 2009 replacing the
  State’s aging and disparate public safety communications systems with
  modern and interoperable systems. This is one of California top priorities.
  In addition, the Department of Homeland Security has strongly
  encouraged California and other states to modernize their communications
  systems.


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 20 

  Three of California’s urban areas have adopted plans to build modern
  regional interoperable communication systems for voice and data. If
  completed, all of the first responders in each of these regions would be
  expected to have full communications interoperability. These Urban
  Areas report that the State and FEMA have approved their plans and
  strongly support these efforts.

  These projects involve several years of planning and design, hundreds of
  millions of dollars of equipment and associated costs, and millions of
  dollars of operating costs once the systems become operational. For
  example, one urban area had already invested more than $2 million in
  planning its regional interoperable communications system. In
  April 2010, this urban area planned to invest an estimated $100 million for
  a system design and engineering analysis. Over the next 3 years the urban
  area expects to spend about $1 billion to acquire, install, and test the
  required infrastructure for the system. The cost of portable and mobile
  radios for 34,000 first responders and the annual operating fees that will
  be required to sustain the radios have not yet been estimated. Although
  the urban area did not have firm financial commitments to pay for the
  acquisition of the system infrastructure, user equipment, or operations, the
  urban area’s officials planned to proceed with the design phase. The
  officials expect most of the remaining system costs to be funded by local
  and state resources. The system is expected to be operational by 2016.

  Similar projects are underway in two other urban areas. Although
  Homeland Security grants have been used to initiate these projects, to fund
  plans and design studies, and to make equipment purchases, the Urban
  Areas Security Initiative managers said they plan on obtaining the balance
  of the funds needed to finish the projects from local resources. However,
  none of the three urban areas have firm commitments from local
  jurisdictions to pay for and support these systems. Without firm financial
  commitments, the initial investment in the projects could be lost if funding
  to complete the project is not found. Also, if the project is not completed,
  the initial need for the project would not be fulfilled.

  Using federal grant funds to begin large and costly projects, for which
  funds are not identified or available to complete, can result in a significant
  waste of the initial investments. Costly design studies and equipment
  languish while waiting for unfunded components to be acquired to
  complete the system. Because of the budget shortfalls currently being
  experienced by the State of California and local jurisdictions, funding in
  the magnitude necessary to finish these projects is questionable, leaving
  these already large investments at risk.




The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 21 

  The Homeland Security Grant Program funds are not entitlement grants
  like Medicare or Social Security. These grants are part of the DHS annual
  appropriation that must be approved by Congress. Therefore, a possibility
  exists that the grant program funding could be reduced or eliminated in the
  future. Accordingly, grant agreements for Urban Areas Security Initiative
  grants should include state and local commitments to sustain such costly
  and important investments if federal funds were to diminish or not be
  available. The uncertainty surrounding future funding of California’s
  Fusion Centers and the interoperable communications systems should be
  resolved while there is ample time to consider and implement suitable
  options.

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency:

           Recommendation #7: Identify options for future funding plan for
           the State’s Fusion Centers that would provide for the continuance
           of the Centers without long term dependency on federal grant
           funding.

           Recommendation #8: Develop options identifying the long term
           funding requirements for the interoperable public safety
           communications systems being initiated to include:
             •	 Realistic assessments of state and local government resources
                available to complete and sustain these programs,
             •	 Identification of federal financial support that may be
                necessary to complete and operate these systems, and
             •	 Making the completion of this plan a condition of future
                grant funds approvals for the programs.

           Recommendation #9: Require the subgrantee to address long-
           term sustainability in their proposals and applications for grant
           funding.

  Management Comments and Auditors’ Analysis
           FEMA partially concurred with recommendations 7, 8 and 9, since
           according to FEMA the issue will need to be addressed at the
           Department level. FEMA noted that it is a sound business practice
           to develop options for potential reductions and or changes in
           priority for grant funded activities. Therefore, FEMA recommends
           that Urban Areas Security Initiatives develop a future funding plan

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 22 

                for their fusion centers that would provide for continuance of
                operation without long term dependency on federal grant funds.
                Recognizing that this position may require updating of existing
                grant guidance, FEMA stated that it will initiate discussions to
                address this issue within the current fiscal year.

                The California Emergency Management Agency agreed with
                recommendations 7, 8 and 9. The State will identify options
                available for sustaining the Fusion Centers. The State noted that
                California is experiencing dire financial circumstances and is
                seeking continued federal assistance consistent with the
                importance of the national priority for information sharing. The
                State will also work with the Urban Areas Security Initiatives to
                develop long-term funding plans for the large scale
                communications systems now underway. Such plans will include
                milestone dates which will be monitored as requests for future
                grants are considered.

                We believe the California Emergency Management Agency’s
                proposed actions address the intent of these recommendations and
                will help the Urban Areas Security Initiatives manage and sustain
                these significant investments.

                The Administrator, Federal Emergency Management Agency,
                needs to provide corrective actions for the recommendations and a
                plan to implement the recommendations within 90 days.

Monitoring of Urban Areas Security Initiative Recipients
      The State Administrative Agency had not conducted on-site monitoring
      visits to Urban Areas Security Initiative grant recipients for FYs 2006
      through 2008 grant awards. While on site monitoring of Urban Area use
      of grant funds is not mandated, it is necessary in California because
      documents such as receipts, delivery notices, and contracts supporting the
      use of these funds were maintained only at the Urban Area grants
      management offices. While the State monitoring unit proposed to visit
      Urban Areas Security Initiatives at least once every 3 years, this has yet to
      occur. In addition, we believe that a 3-year interval is not sufficient to
      fully evaluate whether grant funds were being used effectively and how
      the grants were being managed.

      According to the Code of Federal Regulations Title 44 § 13.40,
      Monitoring and Reporting Program Performance, grantees are required to
      provide day-to-day management of all grants and subgrant supported
      activities, and ensure that grant recipients comply with applicable federal

    The State of California’s Management of Urban Areas Security Initiative Grants
 

                   Awarded During Fiscal Years 2006 through 2008 


                                       Page 23 

  requirements and achieve program performance goals. This regulation
  also specifies that grantee monitoring programs cover each program,
  function, or activity. The State Administrative Agency requires that grant
  recipients provide various documents to describe their activities and
  expenditures.

  Office of Management and Budget Circular A-133, Part 3-M also includes
  grantee monitoring requirements. Part 3-M states that grantees are
  responsible for monitoring subgrantee use of federal awards through
  reporting, site visits, regular contact, or other means. Grantee monitoring
  should provide reasonable assurance that the subgrantee administers
  federal awards in compliance with laws and regulations, as well as the
  provisions of contracts or grant agreements. Monitoring should assure
  that performance goals are achieved.

  The DHS Office of Inspector General’s report on the audit of California’s
  State Homeland Security Program grant funds for FYs 2004 through 2006,
  noted that the State’s monitoring program was insufficient to comply with
  Federal regulations. Site visits were not always conducted and, when
  visits were conducted, the grant monitors focused primarily on grant-
  related administrative requirements and not on the achievement of
  program goals. The scope of the DHS FYs 2004 through 2006 audit did
  not include Urban Areas Security Initiative funds. However, in
  commenting on the OIG draft report, State officials said they would begin
  instituting a program of on-site compliance visits to subgrantees in
  September 2008. The intended compliance visits have apparently not
  included Urban Areas.

  The State Administrative Agency officials told us that they plan to
  conduct monitoring visits at 3 of the 6 urban areas that received Urban
  Areas Security Initiatives grants during FY 2010. However, there is no
  plan to visit the other three urban areas that received Urban Areas Security
  Initiative grant funds. The FY 2010 visits would not be timely for the
  FYs 2006 and 2007 grants since nearly all of these funds would have been
  spent and reimbursed by the State. In addition, a draft policy, currently
  under review, includes monitoring grant recipients at least once every
  3 years. More frequent visits were not included in the State’s plan.

  Monitoring of Urban Areas Security Initiatives on a 3-year cycle is too
  infrequent to make timely assessments of the use of the funds or the
  progress being achieved in attaining needed capabilities and does not
  allow the prompt correction of problems. California urban areas manage
  Urban Areas Security Initiative grants totaling $420 million, ranging from
  $3 million to $80 million each year (see Table 1). The urban areas
  oversee programs to acquire equipment, or to provide services, training,

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 24 

  and exercises for multiple jurisdictions. Some purchases involve new and
  complex technology. Urban Areas Security Initiative management teams
  are small in size and are often overwhelmed with complying with the
  many State and federal regulations and grant guidance. Consequently,
  annual monitoring by the State is essential to assure that the grant goals
  are being achieved and that grant funds are being properly expended. In
  the absence of effective monitoring of California Urban Areas Security
  Initiatives, none of the findings discussed throughout this report were
  identified or corrected by the State and the urban areas.

  State officials said that the monitoring unit was transferred from the grant
  program area to the fiscal program area in May 2009. This move was
  made to consolidate monitoring of all grant activities into one unit. This
  unit was currently in the process of finalizing policies and procedures for
  the operation of the unit. Prior to the transfer, the unit was not adequately
  staffed, and had a high turnover of employees. As a result, the unit was
  unable to conduct timely monitoring of subrecipients. At the time of our
  audit, the monitoring unit had only four employees assigned to monitor all
  open Homeland Security Grant Program funds. In addition, workload
  backlogs may increase because the State of California requires employees
  to be furloughed on three Fridays each month. Therefore, unless sufficient
  resources are committed, the backlog of subrecipient monitoring will
  continue to grow.

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #10: Commit sufficient resources to establish
           and implement policies and procedures for annual on-site
           monitoring of Urban Areas Security Initiative grant recipients.

           Recommendation #11: Require that the on-site monitoring visits
           include evaluations of the recipients’ overall management of the
           grants, including the progress made toward achievement of
           program goals.

  Management Comments and Auditors’ Analysis
           FEMA concurred with recommendations 10 and 11. FEMA noted
           in its written comments that oversight management activities,
           including assessing compliance and progress toward program
           goals, is critical to the success of the grant programs. FEMA has

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 25 

               pledged to follow up with California within 6 months of the
               published date of this report on the State’s progress.

               The California Emergency Management Agency also agreed with
               recommendations 10 and 11. In written comments the State said
               that despite limited resources allowed for management and
               administrative expenses (5%), the State has developed and
               implemented a subrecipient risk assessment program that allows
               for fiscal and administrative monitoring. California provided
               copies of its updated Monitoring Plan and Monitoring Guide. In
               addition, the California Emergency Management Agency pledged
               to develop a plan to ensure regular programmatic site visits to
               Urban Areas Security Initiatives.

               We believe monitoring of the Urban Areas Security Initiative fiscal
               and programmatic performance, including site visits, is critical to
               grant success. The California Emergency Management Agency’s
               written response shows that the State understands the importance
               of monitoring Urban Areas Security Initiative performance and has
               new plans and tools for monitoring performance. If these new
               plans and tools are put into practice, the State should meet the
               intent of this recommendation.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendations and a plan to
               implement the recommendations within 90 days.

Unreported and Unjustified Sole Source Procurements
     California UASI agencies did not always report or justify sole source
     procurements. California Urban Areas Security Initiative agencies did not
     always adhere to procurement requirements for FYs 2006, 2007, and 2008
     grants. The urban areas and their subrecipients:

          •	 Were unfamiliar with procurement regulations required for federal
             awards;

          •	 Awarded multiple, large, sole source purchases of equipment and
             services which were either not reported to the State, or were
             reported and approved, but without adequate supporting
             documentation; and

          •	 Had not performed written cost and price analyses to show the
             prices obtained were fair and reasonable for sole source purchases.


   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 26 

  Accordingly, there was no assurance that the best price had been obtained
  for the sole source procurements, and the urban areas were in violation of
  federal grant requirements.

  The Code of Federal Regulations Title 44 § 13.36, Procurement, provides
  uniform administrative requirements for grants and cooperative
  agreements awarded to state and local governments. These regulations
  direct the state and local governments to use their own procurement
  procedures, which reflect applicable state and local laws and regulations,
  provided that the procedures conform at a minimum to applicable federal
  procurement regulations. Federal procurement requirements require that
  grantees and subgrantees:

       •	 Acquire equipment and services under full and open competition,
       •	 Obtain approval from the State Administrative Agency before
          proceeding with non-competitive procurements,
       •	 Conduct cost analyses to assure prices obtained through non-
          competitive procurements are fair and reasonable, and
       •	 Maintain records sufficient to detail the significant history of the
          procurements.

  In particular, the regulations discourage noncompetitive procurements
  unless the item or service is only available from a single source. In such
  cases, regulations require that the awarding agency first authorize
  noncompetitive procurements in writing and that cost analyses be
  performed to assure the noncompetitive price is fair and reasonable.

  The DHS Office of Inspector General reported in February 2009 that
  California subgrantee managers and county procurement authorities were
  not familiar with and did not always comply with federal requirements
  when procuring equipment using Homeland Security Grant Program
  funds. Multiple sole source procurements were noted that were
  unreported, did not receive State approval, and did not include a written
  cost analysis documenting the price obtained was fair and reasonable.
  These problems were observed in FY 2007 as subgrantees spent grant
  funds approved in FYs 2004, 2005, and 2006. The Urban Areas Security
  Initiative funds were not included in the scope of the February 2009 audit.

  State officials said that during 2008 and 2009, discussions of competitive
  procurement requirements were included in meetings involving Urban
  Areas Security Initiative managers to improve subgrantee awareness of
  proper procurement procedures. However, when we asked Urban Areas
  Security Initiative managers about this training, they were not able to
  recall it or provide associated documents.


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 27 

  Table 4 summarizes procurements made by Urban Areas Security
  Initiative subgrantees without following applicable procurement
  requirements. These procurements were made using grant funds awarded
  for FYs 2006, 2007, and 2008.

                                            Table 4
            Examples of Urban Areas Security Initiative Procurements
                Where Federal Regulations Were Not Followed

                                                                   Cost
  Urban                             Grant       Purchase                            State
                Equipment                                        Analysis
  Areas                             Year        Amount                            Approved
                                                                Performed
             Consulting
      1                              2006      $ 563,775            No              No
             Services
             Public Safety
      1                              2007      $ 527,343            No              No
             Radios
             Information
      2                              2007      $ 515,284            No              No
             Technology
             Intelligence
      3      Analysis                2006      $ 700,000            No              Yes
             Software
             Intelligence
      3      Analysis                2007      $1,250,000           No              Yes
             Software
             Communications
      3      System &                2006      $3,928,473           No              No
             Radios
             License Plate
      3                              2007      $6,226,826           No              No *
             Reader
  * 	 A California Emergency Management Agency sole source approval was provided for
      one of seven systems

  The procurement examples in Table 4 were all procured under sole source
  procedures, two of which were approved by the State. In addition, cost
  analyses were not performed to ensure that the best value was received by
  the urban areas. For example, the consulting services contract was
  justified as sole source procurement by the local purchasing agency for
  urban area 1 because of the perceived competence of the chosen contractor
  and the limited time available to the Urban Areas Security Initiative to
  award the contract before the end of the grant performance period. The
  State’s approval was not requested for this award. Subsequent to the
  award of the contract by the urban area, the contract was extended for
  5 years and increased in value to almost $3 million.

  Another example is the public safety radios procured by urban area 1. The
  radios were all bought as purchase orders against a “Master Contract” with
  a single manufacturer that was originally awarded non-competitively in
The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 28 

  1990. Since then, tens of millions of dollars of communications
  equipment were purchased under this Master Contract. We asked the
  Urban Areas Security Initiative grant manager whether they had provided
  training to the purchasing department officials regarding applicable
  procurement requirements. The manager said they had not done so. We
  confirmed this during discussions with the purchasing department
  officials. In 2008, the Urban Areas Security Initiative manager requested
  and received from the local purchasing department a blanket wavier for
  sole source procurement of any goods or services to be purchased with
  Homeland Security grant funds until 2025. With this waiver in hand, no
  efforts were made to seek State approval of sole source procurements.
  This waiver and the sole source procurements were in complete disregard
  of federal grant requirements and immediate action should be taken by the
  State to freeze all procurement actions until the urban area complies with
  federal requirements.

  For the License Plate Reader purchased by urban area 3, we observed that
  several jurisdictions were buying automated license plate recognition
  equipment costing more than $6 million from a single manufacturer as
  sole source procurements. The program manager told us that the license
  plate recognition equipment was not purchased through advertised
  procurement but from a sole source because it incorporated proprietary
  software within the database that stored and compared the collected
  license plate numbers and associated information. To be compatible with
  and share this information with neighboring jurisdictions, all users had to
  buy from the same manufacturer. The urban area could not provide
  documentation that showed it attempted to require that a non propriety
  data structure be used to enable all jurisdictions to use license plate readers
  from any manufacturer. As a result, all new purchases of license plate
  readers will be made using sole source procurements without competition,
  even though there are other providers of license plate readers.

  Urban Areas Security Initiative grant managers and subrecipients told us
  that in many cases specific brand preferences for the equipment to be
  acquired with grant funds have been made. These officials often already
  had purchased specific types of equipment or were familiar with specific
  brands of equipment and were concerned about maintaining compatibility
  with existing equipment. In other cases, equipment and service providers
  were known, trusted, and past experience indicated the sources provided
  high quality service. Purchasing officials told us conducting a full and
  open competition was time consuming and required significant
  investments of staff resources. The officials said they preferred to issue a
  purchase order against an existing contract.




The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 29 

  State Administrative Agency officials told us that they require urban areas
  to identify and seek approval for any purchase not acquired competitively.
  The State officials acknowledged that if the Urban Areas Security
  Initiative did not identify sole source procurements, the State officials
  assume all purchases were competitive. Also, State officials said that if
  the urban areas seek sole source approval and complete the State’s form
  properly, the sole source procurements were generally approved. The
  State officials do not generally investigate whether competition was
  possible. The officials rely on local jurisdiction judgment and preference.
  We observed some sole source procurements were approved by the State,
  but the accompanying justifications were often brief, not specific, and did
  not persuade us that a full and open competition was not possible.

  Sole source procurements, particularly of high cost equipment and
  services, deny the purchasing jurisdiction the full economic value of a
  competitive marketplace and the opportunity to explore innovative
  approaches to satisfy a need. Non-competitive procurements often cost
  more and may not provide all available features and services. Sole source
  procurements often lead to a long series of vendors obtaining a negotiating
  advantage in subsequent sole source procurements as local jurisdictions
  and cooperating neighboring jurisdictions acquire items from the same
  source to maintain compatibility. This condition occurred numerous times
  in California jurisdictions that were acquiring communications equipment.
  The acquisition of automated license plate recognition systems by
  numerous jurisdictions is another example.

  Although DHS-OIG reported in February 2009 problems with sole source
  procurement among Homeland Security grant purchases in California,
  these practices continued without remediation. Multiple, large
  procurements were made without competition and, in some cases, without
  the State being notified. Other sole source procurements were approved
  by the State but with insufficient documentation. No sole source
  procurement that we observed was substantiated with a cost analysis to
  show that the price obtained was fair and reasonable. While State officials
  acknowledge this problem and have made some effort to correct it, we
  found little progress since the condition was originally reported.

  The amount of grant funds expended as sole source procurements was not
  identified to the State or to us during the audit. Nevertheless, the grant
  funds expended in noncompliance with federal regulations should be
  questioned and disallowed if a review by the State shows that the best
  value was not obtained.




The State of California’s Management of Urban Areas Security Initiative Grants
 

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 30 

  Recommendations:
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the Director, California Emergency
           Management Agency to:

           Recommendation #12: Develop and provide to all Urban Areas
           Security Initiatives grant subgrantee managers, within 6 months of
           this report date, a comprehensive training program on State and
           federal regulations pertaining to competitive procurement.

           Recommendation #13: Prepare, publish, and disseminate a guide
           detailing procurement regulations for FEMA awards to all
           California municipal and county purchasing departments that are
           acquiring equipment or services with Homeland Security grant
           funds.

           Recommendation #14: Complete a review of all grant funded
           purchases exceeding $100,000 to identify those made as sole
           source procurements and:
             •	 Verify that State approval was obtained, sole source
                procurement was justified, and the price was documented as
                fair and reasonable,
             •	 Disallow all procurements that fail to meet these
                requirements, and
             •	 Freeze all procurements for the urban area that has granted a
                waiver from using advertised procurements until it agrees to
                adhere to federal grant procurement requirements.

           Recommendation #15: For future grant years, disallow any
           procurement actions that are not in compliance with federal
           procurement regulations.

  Management Comments and Auditors’ Analysis
           FEMA concurred with recommendations 12, 13, 14, and 15. In
           written comments FEMA pledged to provide California and its
           Urban Areas Security Initiatives specific training in December
           2010 on procurement standards and competition. FEMA also will
           encourage California to review purchases exceeding $100,000
           under sole source procedures as detailed in recommendation 14.
           FEMA will also request California to provide documentation of
           disallowed procurement actions that are not in compliance with
           federal procurement regulations.


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 31 

               The California Emergency Management Agency also agreed with
               recommendations 12, 13, and 15, and partially agreed with
               recommendation 14. The State agreed in written comments to
               issue a Grant Management Memorandum by December 31, 2010
               outlining state and federal regulations regarding competitive
               procurements. Further, the California Emergency Management
               Agency will include training on competitive procurements in
               training workshops to be conducted during December 2010. This
               guidance will also be added to the State’s grant management
               website. As a part of this training, the State will prepare and
               provide a procurement guide for Urban Areas Security Initiatives
               to disseminate to their local procurement agencies. The State has
               also agreed to revise its sole source procurement request form and
               to review all such requests. The State will establish a policy
               allowing grants management staff to disallow sole source
               procurements not pre-approved by the State.

               Regarding recommendation 14, the California Emergency
               Management Agency said that the State does not have the staff
               resources to accomplish the recommended review of all funded
               purchases exceeding $100,000 to assure federal procurement
               competition requirements were met. The State plans to meet the
               intent of this recommendation with the actions detailed above.

               In two successive audits of California we have documented
               problems with unapproved and inappropriate sole source
               procurements. The corrective actions proposed by FEMA and the
               California Emergency Management Agency, if implemented and
               periodically reinforced, can address the intent of these
               recommendations. However, the California Emergency
               Management Agency’s response for recommendations 12, 13, and
               15 is not sufficient to address recommendation 14.
               Disallowing the noncompliant procurements would send a clear
               message to Urban Areas Security Initiatives that failure to fully
               comply with federal competition requirements has undesirable
               consequences.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendations and a plan to
               implement the recommendations within 90 days.

Internal Controls Over Reimbursements
     California’s State Administrative Agency did not require Urban Areas 

     Security Initiative grant fund recipients to provide copies of purchase 


   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 32 

  orders, delivery receipts, and other documentation with their requests for
  reimbursement of approved grant fund expenditures. As a result, the
  State’s internal controls over grant expenditures did not provide assurance
  that expenditures reimbursed to Urban Areas Security Initiative recipients
  were eligible, allowable, and supportable in accordance with federal
  requirements.

  The Code of Federal Regulations Title 44 § 13.20, Standards for
  Financial Management Systems, and the Department of Homeland
  Security Financial Guide, require that grantees maintain an accounting
  system together with adequate internal controls to assure grant
  expenditures are allowable, allocable, authorized, and consistent with
  federal, State, and grant requirements. For source documentation,
  accounting records must be supported by such documentation as cancelled
  checks, paid bills, payrolls, time and attendance records, and contract and
  subgrantee award documents. Review and verification of supporting
  documentation is needed to satisfy federal regulations and the DHS
  financial guide.

  The DHS Office of Inspector General audit report issued in February 2009
  on the Homeland Security Grant Program grants awarded to California for
  FYs 2004 through 2006, reported that the California State Administrative
  Agency did not review supporting documentation for grant expenditures
  before reimbursing subgrantees. The audit report concluded that the State
  had no assurance that reimbursements made to subgrantees were valid and
  eligible, or were appropriately supported by purchase orders, receipts,
  delivery notices, and similar documents.

  A subsequent review by FEMA of California Homeland Security Grant
  payments made in FY 2008 showed that more than $24 million (about
  19%) of expenditures were not proper. Most of the improper payments
  identified were caused by insufficient supporting documents. In most
  cases, this situation was due to the subgrantee not being able to provide
  the relevant invoices, receipts, or summary level reports. FEMA
  recommended that documentation compliance metrics be incorporated
  throughout the grant process to minimize future improper payments. Also,
  to help overcome lost and missing documents, FEMA recommended a
  standardized document retention protocol and corresponding training.

  Our audit of the FYs 2006 through 2008 grants confirmed that the
  California State Administrative Agency did not require Urban Areas
  Security Initiatives to provide documents such as receipts, invoices, and
  delivery notices with their requests for reimbursement of expenditures.
  Instead, the State told us they relied on the following four mechanisms to


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 33 

  ensure that expenditures were proper before reimbursements were 

  approved: 


       1.	 Urban Areas Security Initiatives’ certifications that requests for
           reimbursement of expenditures were correct,

       2.	 An electronic workbook of program and associated expenditures
           which detailed intended purchases,

       3.	 Close working relationships with Urban Areas Security Initiatives
           grant specialists, and

       4.	 Periodic monitoring of Urban Areas Security Initiative grants
           management, including on-site inspection of expenditure
           documents.

  While these internal controls are helpful, the controls were not sufficient
  to provide the necessary level of assurance that reimbursements were
  proper. In addition, the State had not yet monitored the California Urban
  Areas Security Initiatives for the FYs 2006 through 2008 grant periods at
  the time of our review. Moreover, the State’s monitoring unit did not plan
  to perform comprehensive annual on-site visits, nor did it have plans to
  monitor three of the six urban areas in the near future. Review and
  verification of supporting documentation was needed to satisfy federal
  regulations and the DHS Financial Guide.

  During our visit to one urban area, the Urban Areas Security Initiative
  grant management team demonstrated a new automated tool developed to
  track programs managed by their subrecipients. The Urban Areas Security
  Initiative’s Invoice Tracking System included the capability to
  electronically view key expenditure documents. This tool, which might be
  a solution to this issue, is more fully described in the Best Practices
  section of this report.

  Recommendation
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #16: Strengthen internal controls over Urban
           Areas Security Initiative grant expenditure reimbursements, for
           example, through reviews of purchase orders, invoices, and
           delivery receipts.


The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 34 

     Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation 16. FEMA agreed in
               written comments to encourage California to strengthen internal
               controls over grant expenditure reimbursements.

               The California Emergency Management Agency also agreed with
               this recommendation, and stated it would initiate a sampling
               procedure to review source documentation prior to reimbursing
               Urban Areas Security Initiatives for their grant funded purchases.

               The California Emergency Management Agency’s plan to sample
               and review some reimbursement documentation falls short of what
               we believe is needed to assure grant funds are being expended
               properly. We remind the State that one of the California Urban
               Areas Security Initiatives has developed an electronic system that
               could facilitate documentation review without the burden of
               handling, transporting and storing paper documents. We believe a
               pilot program to try this option, together with the sampling of
               documents proposed by the State, would more closely meet the
               intent of this recommendation.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendation and a plan to
               implement the recommendation within 90 days.

Management of Cash Advances
     The State Administrative Agency did not maintain a system for
     monitoring cash advances and accrued interest for Urban Areas Security
     Initiative agencies. The State provided cash advances to one of
     California’s Urban Areas Security Initiatives for the FYs 2006 through
     2008 grants, which were held by the urban area beyond the time permitted
     by regulation. Accrued interest was not reported or paid as required.
     Moreover, the State was not aware of the situation because the State did
     not have a system to account for the advanced funds or interest due.

     According to the Code of Federal Regulations Title 44 §13.21 (c),
     Advances, grantees and subgrantees can be paid in advance, if they
     demonstrate the willingness and ability to maintain procedures to
     minimize the time elapsing between the transfer of the funds and their
     expenditure. OMB Circular A-133 Compliance Supplement, Part 4,
     Section (III) (C), states that grantees are permitted to draw down funds up
     to 120 days prior to expenditure or disbursement, but must place those
     funds in an interest-bearing account, with the interest submitted to the U.S.

   The State of California’s Management of Urban Areas Security Initiative Grants
 

                  Awarded During Fiscal Years 2006 through 2008 


                                      Page 35 

  Treasury. California grant guidance also states that subgrantees may
  request grant funds up to 120 days prior to expenditure/reimbursement.

  In addition, the Code of Federal Regulations Title 44 § 13.21(i) Interest
  Earned on Advances, states that grantees and subgrantees shall promptly,
  but at least quarterly, remit interest earned on advances to the federal
  agency. FEMA officials advised us that interest accrued from cash
  advances should be reported on the quarterly Financial Status Report.
  Interest earned also should be remitted quarterly by the State
  Administrative Agency to FEMA.

  While most California Urban Areas Security Initiatives paid for approved
  expenditures with local funds and then requested reimbursement from the
  State with grant funds, one urban area requested and received more than
  $29.9 million of cash advances from the State for the FYs 2006 through
  2008 grants. For various reasons, the urban area did not promptly spend
  these funds and a portion of the funds were not spent within the 120-day
  limit specified in the cash management regulations. Also, accrued interest
  on these cash advances was not remitted promptly or reported as required.

  Table 5 shows cash advances, disbursements, and interest accrued for this
  urban area from the FYs 2006 through 2008 Urban Areas Security
  Initiative grants.

                                           Table 5
                       Urban Areas Security Initiative
              Cash Advances, Disbursements, and Accrued Interest
                          As of December 31, 2009
                    FYs 2006 through 2008 Grant Awards
                                  Amount                       Accrued
     Grant Year    Advances                      Balance
                                 Disbursed                      Interest
         2006          $ 21,132,084       $ 20,727,665        $ 404,419             $ 271,783
         2007          $ 8,792,495        $ 5,156,562         $ 3,635,933           $ 69,618
         2008          $     15,798       $     15,324        $       474           $       0
                       $ 29,940,377       $ 25,899,551        $ 4,040,826           $ 341,401

  Of the $21,132,084 cash advances for the FY 2006 grant, $3,059,221 was
  not spent within the 120 day limit. The records provided by urban area
  officials were not detailed enough to allow us to determine the total
  amount of cash advances that were expended within 120 days for the
  FY 2007 grant. However, we did determine that there was an unexpended
  balance of $3,635,933 retained for more than 120 days.




The State of California’s Management of Urban Areas Security Initiative Grants
 

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 36 

  Interest of $341,401 earned on the cash advanced to this urban area had
  not been remitted quarterly to the Federal Government. A lump sum
  payment of $341,401 of the total accrued interest was made to the federal
  government at the time of our audit visit to the urban area.

  The State Administrative Agency did not adequately monitor cash
  advanced to this urban area. Therefore, it was not aware of the urban
  area’s noncompliance with reporting and payment of interest
  requirements. As a result, accrued interest due was not reported by the
  State on the quarterly financial status report as required.

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the California Emergency Management
           Agency to:

           Recommendation #17: Establish policies and procedures to
           ensure that cash advances to subgrantees are only provided based
           on immediate disbursement requirements and that procedures are
           in place to minimize the time needed to expend these funds.

           Recommendation #18: Require subgrantees to return funds
           advanced if not expended within 120 days of the advance being
           provided.

           Recommendation #19: Require subgrantees to track accrued
           interest on cash advances, remit the interest earned in accordance
           with requirements to FEMA, and report the interest earned on the
           Financial Status Reports.

  Management Comments and Auditors’ Analysis
           FEMA concurred with recommendations 17, 18, and 19. FEMA
           noted in written comments that grant funds must be expended in
           accordance with 44 CFR Part 13.

           The California Emergency Management Agency also agreed with
           these recommendations. The State in written comments advised of
           new procedures established to manage and account for cash
           advances, accrued interest, and associated reporting.

           We believe these procedures can significantly improve the control
           and accounting for cash advances and meet the intent of this
           recommendation.

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 37 

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendations and a plan to
                implement the recommendations within 90 days.

Two California Urban Areas Security Initiatives Are Using
Innovative Systems That May Be Best Practices
      The San Diego and Los Angeles-Long Beach urban areas were using
      innovative systems to better invest and manage Urban Areas Security
      Initiative grant funds.

         •	 San Diego’s Technology Clearinghouse helps subrecipients make
            more informed purchasing decisions, and

         •	 The Invoice Tracking System developed by Los Angeles-Long
            Beach provides an on-line tool for managing subrecipient programs.

      These systems merit broader use in California and should be considered
      for evaluation and use in other jurisdictions.

                San Diego’s Technology Clearinghouse

                San Diego Urban Areas Security Initiative managers said that
                when technical experts assist first responders in selecting
                equipment and other products these programs tend to be more
                successful. Were such efforts more broadly coordinated, program
                success could increase throughout California,

                California first responders are inundated with new and improved
                products designed to help them prevent and respond to terrorist
                acts and natural disasters. Program Leaders are often highly
                trained law enforcement officers, firefighters, or emergency
                managers skilled in something other than purchasing. The
                Program Leaders can struggle with detailed specification, claimed
                benefits, warrantees, compatibility issues, prices, and a myriad of
                other product issues. With limited time to research product
                literature and independent test results, if any are available,
                Program Leaders are often forced to rely on manufacturer’s claims
                to guide purchase decisions. If the product meets, exceeds, or falls
                short of expectations, there is no readily available way to get the
                word out to other jurisdictions.

                The San Diego urban area is helping first responders be better
                buyers by investing in a Regional Technology Center and its
                Technology Clearinghouse initiative. This initiative is designed to

    The State of California’s Management of Urban Areas Security Initiative Grants
 

                   Awarded During Fiscal Years 2006 through 2008 


                                       Page 38 

           evaluate new technologies and provide local jurisdictions detailed,
           independent assessments of equipment and systems being
           considered by first responders. The evaluations feature both
           technical assessments and testing under realistic conditions by first
           responders. The evaluations also include assessments by other first
           responders who have purchased and used the prospective
           equipment or system. The Center’s reports are clearly presented,
           objective, and readily available electronically. As a result, San
           Diego first responders have timely sources of available product
           evaluations to help them make better investment decisions.

           Los Angeles-Long Beach Invoice Tracking System

           The Los Angeles-Long Beach urban area received more than
           $70 million of Urban Areas Security Initiative grant funds each
           year for the 3 year period. Tracking the documentation associated
           with hundreds of programs supported with the grant funds posed a
           significant problem. The Urban Areas Security Initiative
           managers, accountants, and subrecipients were all frustrated with a
           paper-based system that too often was associated with
           reimbursement delays, misunderstandings, and inefficiency. The
           Urban Areas Security Initiative managers resolved these problems
           with an innovative, on-line Invoice Tracking System. The System
           allows the program teams to digitally record and store all essential
           program documentation. The documentation is then available for
           use by Urban Areas Security Initiative managers and the urban
           area’s accounting department. The urban area staff said this tool
           has eliminated much of the uncertainty surrounding the status of
           programs during the purchasing and approval process. They
           emphasized the value of being able to electronically view key
           purchase documents

           The Los Angeles-Long Beach System allows any approved system
           user to sign on and determine the program status in real time, view
           essential documents, review expenditures, and determine the status
           of reimbursement requests without any need for paper documents,
           specialized software, or storage. The Los Angeles-Long Beach
           Invoice Tracking System could offer similar benefits to other
           Urban Areas Security Initiatives management teams. The System
           could also be beneficial to the California Emergency Management
           Agency in its response to the DHS Office of Inspector General’s
           and FEMA’s reported concerns that the State does not review
           purchase orders, sales invoices, or delivery notices before
           reimbursing urban areas and other subgrantees for incurred
           expenses.

The State of California’s Management of Urban Areas Security Initiative Grants

               Awarded During Fiscal Years 2006 through 2008 


                                   Page 39 

Appendix A
Purpose, Scope, and Methodology

                      The purpose of the audit was to determine whether the State of
                      California distributed and spent Urban Areas Security Initiative
                      grant funds strategically, effectively, and in compliance with laws,
                      regulations, and guidance. The goal of the audit was to identify
                      problems and solutions that can help the State of California better
                      prepare for and respond to threats, acts of terrorism, and other
                      hazards. The audit further enabled us to answer the following nine
                      researchable questions:

                        •   Were measurable goals developed from plans?
                        •   Do funded plans link all hazards response capabilities to goals?
                        •   Were funds and resources distributed based on goals?
                        •   Does the State accurately measure risk?
                        •   Does the State measure response capabilities?
                        •   Can the State demonstrate improved performance?
                        •   Were grants administered compliantly?
                        •   Did the State monitor grant programs?
                        •   What innovative practices can be used by other states?

                      The scope of the audit included the Urban Areas Security Initiative
                      grant awards for FYs 2006, 2007, and 2008 as described in the
                      Background section of this report and summarized in Table 1.

                      The audit methodology included work at FEMA Headquarters,
                      State of California offices, each of the six urban areas that received
                      grants, and various subrecipient locations. To achieve our audit
                      objectives, we analyzed data, reviewed documentation, and
                      interviewed key state, Urban Areas Security Initiative, and local
                      officials directly involved in the management and administration of
                      the State of California’s Homeland Security Grant Programs.

                      We conducted six site visits and held discussions with appropriate
                      officials from all six of the urban areas receiving Urban Areas
                      Security Initiative grants. The visits and discussions were
                      performed in order to determine if program grant funds were
                      expended according to grant requirements and State-established
                      priorities. During each of these visits we conducted a general
                      meeting with subrecipients to discuss their use of Urban Areas
                      Security Initiative grants, the impact these grants had on first
                      responder preparedness, and the management of the grants by the
                      Urban Areas Security Initiative teams. During these visits we met
                      with approximately 400 subrecipients.



          The State of California’s Management of Urban Areas Security Initiative Grants
 

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 40 

Appendix A
Purpose, Scope, and Methodology

                      We conducted site visits to the six California Urban Areas Security
                      Initiatives representing all three State emergency management
                      regions, and to 35 subrecipient organizations. We visited:

                          •    Coastal Region

                               o	 Bay Area Urban Area (San Francisco)
                                      Alameda County Sheriff
                                      Contra Costa County Emergency Management
                                      Northern California Regional Intelligence
                                        Center
                                      Oakland Office of Emergency Services
                                      San Francisco Bay Area Rapid Transit
                                        Authority
                                      San Francisco Bomb Squad
                                      San Francisco Department of Public Works
                                      San Francisco Emergency Operations Center
                                      San Jose Police Department
                                      San Mateo County Sheriff
                                      Santa Clara Public Health Department

                          •    Inland Region

                               o	 Sacramento Urban Area
                                      City of Sacramento Government Center
                                      Sacramento Police Department
                                      Sacramento Regional Office of Homeland
                                        Security

                          •    Southern Region

                               o	 Anaheim-Santa Ana Urban Area
                                      Anaheim Angles Stadium
                                      Anaheim Fire Department
                                      City of Santa Ana Civic Center
                                      Garden Grove Police Department
                                      Orange County Fire Authority
                                      Santa Ana Police Department




          The State of California’s Management of Urban Areas Security Initiative Grants
 

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 41 

Appendix A
Purpose, Scope, and Methodology

                               o	 Los Angeles-Long Beach Urban Area
                                      City of Los Angeles Communications
                                        Department
                                      Long Beach Fire Department
                                      Long Beach Police Department
                                      Los Angeles County Fire Department
                                      Los Angeles County Sheriff
                                      Los Angeles Police Department

                               o Riverside Urban Area

                               o	 San Diego Urban Area
                                      City of San Diego Communications Department
                                      City of San Diego Purchasing Department
                                      San Diego County Sheriff’s Office
                                      San Diego Fire Department
                                      San Diego Fusion Center
                                      San Diego State University Research
                                         Foundation
                                      San Miguel Fire Department
                                      Vista Fire Department

                      At each location, we interviewed responsible officials, reviewed
                      documentation supporting State and subgrantee management of the
                      awarded grant funds (including expenditures for equipment,
                      training, and exercises), and physically inspected some of the
                      equipment procured with the grant funds.

                      We conducted the audit between December 2009 and May 2010, in
                      accordance with Government Auditing Standards as prescribed by
                      the Comptroller General of the United States (Yellow Book-2007
                      Revision). Those standards require that we plan and perform the
                      audit to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives.

                      Although this audit included a review of costs claimed, we did not
                      perform a financial audit of those costs. This was a performance
                      audit as defined by Chapter 1 of the Standards, and included a
                      review and report of program activities with a compliance element.
                      Foxx & Company was not engaged to and did not perform a
                      financial statement audit, the objective of which would be to
                      express an opinion on specified elements, accounts, or items.

          The State of California’s Management of Urban Areas Security Initiative Grants
 

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 42 

Appendix A
Purpose, Scope, and Methodology

                      Accordingly, we were neither required to review, nor express an
                      opinion on, the costs claimed for the grant programs included in
                      the scope of the audit. Had we been required to perform additional
                      procedures, or conducted an audit of the financial statements in
                      accordance with generally accepted auditing standards, other
                      matters might have come to our attention that would have been
                      reported. This report relates only to the programs specified and
                      does not extend to any financial statements of the State of
                      California.

                      While the audit was being performed and the report prepared under
                      contract, the audit results are being reported by the DHS Office of
                      Inspector General to appropriate FEMA and State of California
                      officials.




          The State of California’s Management of Urban Areas Security Initiative Grants
 

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 43 

Appendix B
FEMA Management Comments on the Draft Report

                                         December 6, 2010

MEMORANDUM FOR:                   Michael Siviy
                                  Director
                                  Grants Management Division, DHS OIG

FROM:                             Elizabeth M. Harman
                                  Assistant Administrator


SUBJECT:	                         Response to Draft OIG: The State of California’s
                                  Management of Urban Areas Security Initiatives Awarded
                                  During Fiscal Years 2006 through 2008

Thank you for the opportunity to comment on the subject draft report entitled, “The State
of California’s Management of Urban Areas Security Initiatives Awarded During Fiscal
Years 2006 through 2008”. The findings in the report will be used to strengthen the
effectiveness and efficiency of how we execute and measure the program. We recognize
the need to continue to improve the process, including addressing the recommendations
raised in this report.

Thank you for the opportunity to respond to the report and to work with the Office of the
Inspector General during this engagement.


Attachment


cc: 	   Annette Hampton, RMBA
        Mildred Lloyd, GPD Audit Liaison




             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                Page 44 

Appendix B
FEMA Management Comments on the Draft Report




Response to Draft Report

    The State of California’s Management of Urban Areas Security Initiative Grants Awarded
 
                              during Fiscal Years 2006 through 2008
         
 

                                          December 6, 2010




              The State of California’s Management of Urban Areas Security Initiative Grants
 

                             Awarded During Fiscal Years 2006 through 2008 


                                                 Page 45 

Appendix B
FEMA Management Comments on the Draft Report

I.      Introduction
During the formal exit conference held Oct 25, 2010 many issues relating to the finding
of this draft report were discussed amongst all Federal parties. The findings and
recommendations within the Draft Report focused on improvements needed to enhance
California’s management of UASI grants. FEMA’s Grant Programs Directorate (GPD)
and FEMA Region IX Grants Management Division provided their concurrence, partial
concurrence, or non-concurrence on each of the 19 recommendations.

The State is ultimately responsible for all programmatic and fiduciary actions that are
connected directly or indirectly with the Homeland Security Grants examined under this
review. Many of the findings are historic, systemic and permeate the State and UASI
programs throughout the FY04-FY08 timeframe. FEMA recommends the corrective
recommendations be adopted and implemented by the State and the UASI
program/financial managers. The use of “concur” throughout the report means that GPD
and Region IX agrees with the recommendations as a way forward to improvement and
provides a path for remediation under a corrective action plan, but is not intended to infer
that the recommendations that are not clearly codified by federal regulations, laws, statute
or guidance can be fully enforced as mandates. Therefore, we will be prescriptive in the
creation of the corrective action plan and on the cooperation and coordination of the Sate
Administrative Agency (SAA) to reform, adopt, and implement these recommendations.

OIG Recommendation #1: We recommend that the Assistant Administrator, Grants
Program Directorate, require the California Emergency Management Agency to develop
meaningful metrics for measuring program results, collect results measurement data from
subrecipients, and include these metrics in Investment Justifications and program funding
approval deliberations.

FEMA Response: FEMA partially concurs with this recommendation. GPD discussed
how the issues within the finding have come up in other audits. GPD indicated that the
SAA is in the process of developing a metrics system as indicated in the 2008 State OIG
Corrective Action Plan. However, it appears that at this point the metrics is more of a
state inventory and resource typing database. It is unclear to FEMA at this point if this
will evolve into a program that captures results measurement, such as preparedness
capabilities. FEMA will follow-up with the State within six months of the final report
and request additional information on its progress in developing a metrics system.

OIG Recommendation #2: We recommend that the Assistant Administrator, Grants
Program Directorate, require the California Emergency Management Agency to establish
and apply a meaningful review process designed to disclose the value and utility of
proposed equipment and systems during the Investment Justification review and the
expenditure plan approval processes.

FEMA Response: FEMA partially concurs with this recommendation. In addition,
FEMA suggests revising current State Homeland Security Grant monitoring program
policy to include quantifiable goals or criteria to determine the effectiveness of each grant

             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                Page 46 

Appendix B
FEMA Management Comments on the Draft Report

specific to each grant year. The policy should indicate the method for selecting sub
grantees to be visited, and the number or frequency of monitoring visits each year for
both State Homeland Security Program grants and Urban Area Security Initiative grants.

In addition, FEMA Region IX suggested that the names of the UASI that corresponds to
the specific findings in the OIG report be listed to increase ownership and accountability.
The Grant Development and Administration Division (GPD) within the Federal
Emergency Management Agency’s (FEMA) Grant Programs Directorate (GPD) requests
that the State Office of Homeland Security submit a revised Homeland Security Grant
Program monitoring policy to their GPD Program Analyst within 90 days to include more
quantifiable goals and criteria for determining the effectiveness of each grant. The
updated policy should include:

       a.) A clear method for selecting sub grantees to be visited,

       b.) The number or frequency of monitoring visits each year for both SHSP (State
           Homeland Security Program) grants and UASI (Urban Area Security
           Initiative) grants, and

       c.) The protocols to be followed during the monitoring visits.

OIG Recommendation #3: We recommend that the Assistant Administrator, Grants
Program Directorate, require the California Emergency Management Agency to develop
and disseminate guidance to California Urban Areas Security Initiatives specifying the
importance of efficient and cost effective use of grant funds to improve first responder
preparedness.

FEMA Response: FEMA non-concurs with the recommendation.

The grant guidance states that “Grant recipients will be monitored periodically by DHS
staff, both programmatically and financially, to ensure that the project goals, objectives,
performance requirements, timelines, milestone completion, budgets, and other related
program criteria are being met. Monitoring will be accomplished through a combination
of office-based reviews and on-site monitoring visits. Monitoring will involve the review
and analysis of the financial, programmatic, performance and administrative issues
relative to each project and will identify areas where technical assistance and other
support may be needed.”

On-site monitoring visits and office-based reviews assist the program office in
identifying recurring problems that grantees may have that can be addressed through
additional clarification on the website, incorporation into the training modules, and
modifications to the grant guidance. The program office will continue to stress its
importance in training and as part of monitoring. The program office carries out actions
to ensure that all grantees are aware of the requirements of the program and their


            The State of California’s Management of Urban Areas Security Initiative Grants
 

                           Awarded During Fiscal Years 2006 through 2008 


                                               Page 47 

Appendix B
FEMA Management Comments on the Draft Report

individual grant award. FEMA diligently works to ensure that all grantees are complying
with the requirements set forth in the grant award.

Additionally, grant guidance under “Grantee Responsibilities” clearly states that the
grantee must agree to “Retain grant files and supporting documentation for 3 years, after
the conclusion and closeout of the grant or any audit subsequent to closeout.” FEMA is
taking necessary actions to ensure that grantees comply with federal documentation
requirements and will not take any additional action on this recommendation.

OIG Recommendation #4: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to, in
consultation with the Urban Areas Security Initiative managers, identify process changes
to accelerate the grant award approval process to the Urban Areas Security Initiative
subrecipients.

FEMA Response: FEMA partially concurs with this recommendation. FEMA agrees
with the findings in that the timely distribution and dissemination of grant funds is critical
to the success of our programs. Therefore, we recommend that the California EMA
implement guidance, policies and processes including milestones and timelines to ensure
the timely distribution of grant funds to achieve and implement program goals and
objectives. FEMA will follow-up with the State within six months of the final report and
request additional information on its progress updating guidance, policies and processes

OIG Recommendation #5: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to
establish a timeframe for the Urban Area to make grant funds available to subrecipients
for future Urban Areas Security Initiative grants, consistent with the experience of other
California Urban Areas Security Initiatives.

FEMA Response: FEMA partially concurs with this recommendation. FEMA agrees
with the findings in that the timely distribution and dissemination of grant funds is critical
to the success of our programs. Therefore, we recommend that the California EMA
implement guidance, policies and processes including milestones and timelines to ensure
the timely distribution of grant funds to achieve and implement program goals and
objectives. FEMA will follow-up with the State within six months of the final report and
request additional information on its progress updating guidance, policies and processes

OIG Recommendation #6: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to
establish an oversight process for assuring Urban Areas Security Initiative compliance
with the timeframes.

FEMA Response: FEMA partially concurs with this recommendation. FEMA agrees
with the findings in that oversight management activities including assessing compliance
and progress toward program goals is critical to the success of our programs. Therefore,

             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                Page 48 

Appendix B
FEMA Management Comments on the Draft Report

we recommend that the California EMA implement guidance, policies and processes to
ensure the achievement of Federal goals and initiatives through monitoring. The state is
the only entity charged with passing down funds to the Urban Area in HSGP grants.
GPD can make a suggestion to the grantee regarding the recommendation but cannot
promulgate requirements related to such timeframes. FEMA will follow-up with the
State within six months of the final report and request additional information on its
progress updating guidance, policies and processes.

OIG Recommendation #7: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency identify
options for future funding plan for the State’s Fusion Centers that would provide for the
continuance of the Centers without long term dependency on federal grant funding.

FEMA Response: FEMA partially concurs with this recommendation. It is a sound and
proactive business practice to develop options for the potential reduction and or change in
priority for grant funded activities, therefore it is recommended that UASIs develop a
future funding plan for the State’s Fusions Centers that would provide for the
continuance of the Centers without long term dependency on federal grant funding.
FEMA will follow-up with the State within six months of the final report and request
additional information on its future funding plan. For additional rationale regarding
partial concurrence, please refer to FEMA’s response to recommendation #9.

OIG Recommendation #8: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to develop
options identifying the long term funding requirements for the interoperable public safety
communications systems being initiated to include:

- Realistic assessments of state and local government resources available to complete and
sustain these programs,
- Identification of federal financial support that may be necessary to complete and operate
these systems, and
- Making the completion of this plan a condition of future grant funds approvals for the
programs

FEMA Response: FEMA partially concurs with this recommendation. For additional
rationale regarding partial concurrence, please refer to FEMA’s response to
recommendation #9.

OIG Recommendation #9: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency subgrantee
to address long-term sustainability in their proposals and applications for grant funding .

FEMA Response: FEMA partially concurs with this recommendation. Given that GPD
partially concurs with recommendations 7 through 9, this issue will have to be addressed
at a higher level within the Department or Administration. The corrective action plan

            The State of California’s Management of Urban Areas Security Initiative Grants
 

                           Awarded During Fiscal Years 2006 through 2008 


                                               Page 49 

Appendix B
FEMA Management Comments on the Draft Report

should be developed in a way that addresses the recommendation and can provide a
meaningful outcome but is not in violation of program guidance regarding the State’s
responsibility for the development of sub-recipient policies and procedures. FEMA will
initiate the discussion to address this issue within the current fiscal year.

OIG Recommendation #10: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to commit
sufficient resources to establish and implement policies and procedures for annual on-site
monitoring of Urban Areas Security Initiative grant recipients

FEMA Response: FEMA concurs with this recommendation. FEMA agrees with the
findings in that oversight management activities including assessing compliance and
progress toward program goals is critical to the success of our programs. Therefore, we
recommend that within the current fiscal year the California EMA implement guidance,
policies and processes to ensure the achievement of Federal goals and initiatives through
monitoring. FEMA will follow-up with the State within six months of the final report
and request additional information on its progress updating guidance, policies and
processes.

OIG Recommendation #11: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to require
that the on-site monitoring visits include evaluations of the recipients’ overall
management of the grants, including the progress made toward achievement of program
goals.

FEMA Response: FEMA concurs with this recommendation and will encourage the
State to begin developing ways to incorporate evaluations of the recipients’ overall
management of grants into on-site monitoring within six months of the final report. GPD
has already begun implementing the corrective action for recommendation 10. Region 9
requested that OIG add language to recommendation 11 to include implementing past
corrective actions regarding monitoring. As stated in FEMA’s response to
recommendation 10, FEMA agrees with the findings in that oversight management
activities including assessing compliance and progress toward program goals is critical to
the success of our programs. Therefore, we recommend that the California EMA
implement guidance, policies and processes to ensure the achievement of Federal goals
and initiatives through monitoring.

OIG Recommendation #12: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director, California Emergency Management Agency
to develop and provide to all Urban Areas Security Initiatives grant sub-grantee
managers, within 6 months of this report date, a comprehensive training program on State
and federal regulations pertaining to competitive procurement.

FEMA Response: FEMA concurs with this recommendation. On December 7 and 8,
2010 the Grant Programs Directorate, via the Homeland Security Preparedness Technical

            The State of California’s Management of Urban Areas Security Initiative Grants
 

                           Awarded During Fiscal Years 2006 through 2008 


                                               Page 50 

Appendix B
FEMA Management Comments on the Draft Report

Assistance Program, will provide a Direct Technical Assistance (TA) Delivery to the
California State Administrative Agency (SAA) and California Urban Areas including
Bay Area (Super UASI), Los Angeles/Long Beach, San Diego, Sacramento, Bakersfield,
Anaheim/Santa Ana, Ventura, and Riverside. This intensive workshop will provide
rigorous, customized solutions and successful grants management principles tailored to
the needs of the California SAA and Urban Area subrecipients, with emphasis on
procurement standards and competition. We will encourage the SAA to develop and
provide Urban Areas a comprehensive training program on State and federal regulations
pertaining to competitive procurement. FEMA will follow up and request additional
information on the State’s progress towards providing comprehensive training within six
months of the final report.

OIG Recommendation #13: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director, California Emergency Management Agency
to prepare, publish, and disseminate a guide detailing procurement regulations for FEMA
awards to all California municipal and county purchasing departments that are acquiring
equipment or services with Homeland Security grant funds.

FEMA Response: FEMA concurs with this recommendation. FEMA agrees with the
findings in that grant funds must be expended in accordance with 44 CFR Part 13, OMB
cost principles, and program guidance is critical to the success of our programs.
Therefore, we recommend that the California EMA implement guidance, policies and
processes to ensure the integrity of Federal assistance funds within the current fiscal year.

OIG Recommendation #14: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director, California Emergency Management Agency
to complete a review of all grant funded purchases exceeding $100,000 to identify those
made as sole source procurements and:
- Verify that State approval was obtained, sole source procurement was justified, and the
price was documented as fair and reasonable,
- Disallow all procurements that fail to meet these requirements, and
- Freeze all procurements for the Urban Area that has granted a waiver from using
advertised procurements until it agrees to adhere to federal grant procurement
requirements.

FEMA Response: FEMA concurs with the recommendation and will encourage the
State to initiate this review within six months of the final report. As stated in FEMA’s
response to recommendation #13, FEMA agrees with the findings in that grant funds
must be expended in accordance with 44 CFR Part 13, OMB cost principles, and program
guidance is critical to the success of our programs. Therefore, we recommend that the
California EMA implement guidance, policies and processes to ensure the integrity of
Federal assistance funds.

OIG Recommendation #15: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director, California Emergency Management Agency

             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                Page 51 

Appendix B
FEMA Management Comments on the Draft Report

to for future grant years, disallow any procurement actions that are not in compliance
with federal procurement regulations.

FEMA Response: FEMA concurs with this recommendation. Within the current fiscal
year, FEMA will request the State to provide documentation of disallowed procurement
actions that are not in compliance with federal procurement regulations.

OIG Recommendation #16: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to
strengthen internal controls over Urban Areas Security Initiative grant expenditure
reimbursements, for example, through reviews of purchase orders, invoices, and delivery
receipts.

FEMA Response: FEMA concurs with this recommendation and will encourage the
State to provide an update on its progress in strengthening internal controls within six
months of the final report. As stated in FEMA’s response to recommendation #13,
FEMA agrees with the findings in that grant funds must be expended in accordance with
44 CFR Part 13, OMB cost principles, and program guidance is critical to the success of
our programs. Therefore, we recommend that the California EMA implement guidance,
policies and processes to ensure the integrity of Federal assistance funds.

OIG Recommendation #17: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to
establish policies and procedures to ensure that cash advances to sub grantees are only
provided based on immediate disbursement requirements and that procedures are in place
to minimize the time needed to expend these funds.

FEMA Response: FEMA concurs with this recommendation. As stated in FEMA’s
response to recommendation #13, FEMA agrees with the findings in that grant funds
must be expended in accordance with 44 CFR Part 13, OMB cost principles, and program
guidance is critical to the success of our programs. Therefore, we recommend that the
California EMA implement guidance, policies and processes to ensure the integrity of
Federal assistance funds. FEMA will follow-up with the State within six months of the
final report and request additional information on its progress updating guidance, policies
and processes

OIG Recommendation #18: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency to require
sub grantees to return funds advanced if not expended within 120 days of the advance
being provided.

FEMA Response: FEMA concurs with this recommendation. As stated in FEMA’s
response to recommendation #13, FEMA agrees with the findings in that grant funds
must be expended in accordance with 44 CFR Part 13, OMB cost principles, and program
guidance is critical to the success of our programs. Therefore, we recommend that the

            The State of California’s Management of Urban Areas Security Initiative Grants
 

                           Awarded During Fiscal Years 2006 through 2008 


                                               Page 52 

Appendix B
FEMA Management Comments on the Draft Report

California EMA implement guidance, policies and processes to ensure the integrity of
Federal assistance funds. FEMA will follow-up with the State within six months of the
final report and request additional information on its progress updating guidance, policies
and processes.

OIG Recommendation #19: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the California Emergency Management Agency require
subgrantees to track accrued interest on cash advances, remit the interest earned in
accordance with requirements to FEMA, and report the interest earned on the Financial
Status Reports.

FEMA Response: FEMA concurs with this recommendation. As stated in FEMA’s
response to recommendation #13, FEMA agrees with the findings in that grant funds
must be expended in accordance with 44 CFR Part 13, OMB cost principles, and program
guidance is critical to the success of our programs. Therefore, we recommend that the
California EMA implement guidance, policies and processes to ensure the integrity of
Federal assistance funds. FEMA will follow-up with the State within six months of the
final report and request additional information on its progress updating guidance, policies
and processes.

Additionally, GPD requested that OIG remove the example on page 33 of the draft report
as the grantee was in compliance. At the time, language in FEMA’s letter to the grantee
indicated that interest payments should be made to the HHS instead of FEMA, as is now
required.




            The State of California’s Management of Urban Areas Security Initiative Grants
 

                           Awarded During Fiscal Years 2006 through 2008 


                                               Page 53 

Appendix C
State of California Management Comments on the Draft Report




    ARNOI,.O SCHWAJ<.Z~NEOGER                                                                 MAlTHEW R, BE'IT~NH,WSEN
    GOVERNOR                                                                                                     S~l;."'liTAAY


                                           ~)~            CalE·MA
                                           w-=..
                                           ~
                                                 .-       CALIFOAIHA EMEIlGENCY
                                                          IotANAOflotfNT AGfNCY




             December 1,2010

             Martin W. O'Neill
             Foxx and Company
             700 Goodall Complex
             324 We:tIl Ninth Sireel
             Cincinnati, Ohio 45202

             Dear Mr. O'Neill:

            The California Emef(~ency Management Agency (Cal EMA) has reccivcd and reviewed Ihe draft
            audit report concerning Cal EMA's administration ofthe UrblUl Areas SecuriTy Initiative (VASI)
            grants awarded during fiscal yearS 2006 through 2008.

            At Cal EMA, we strive for excellence in all that we do IUld appreciate your independent review
            of the administration of the UASI funds awarded by the Federal Emergency Managcment
            Agency to the Stale ofCalifomia. Your review Is of the utm<;>st importance to us, our granl
            recipients, and other agencies tasked with enhancing the state and local agencies capabilities 10
            prevent, detcr, respond to, and recover from terrorist attacks, major disasters and othcr
            emergencies. Wc apprcciatc the opportunity to provide the status ofour corrective action plan to
            the specific area.~ identified in the report and do 50 3..'1 follows:

            Improved Program Resulll Rcponing

            Recommemlatloll #1
            Develop meaningfullnetries for measuring program re5ults, collect results measurement data
            from subrecipicnts, and include these melncs in Investmcnt Justifications and program funding
            approval deliberations.

            Cal EMA Response
            We concur with this recommcndation. Wc will work with thc U.S. DHSfFEMA as nceded 10
            develop additional guidelines and/or perfonnance mcasures regarding lhc VASI Investment
            Justification review process.

            The ?Y 2006 Homeland SecuriTy Grant Program Guidallce lUld ApplicatiOn Kit, does not State
            the Stllte AdminiSlrative Agency (SAA) is responsible for scoring the Urban Areas Se<:~ity
            Initia.live Invcstmcnt Justifications (Us) during the funding approval dcliberations. According to
            page 60 of the above referenced guidance, "An Investment Justification template will be
            provided to the States to facilitate the application submission process. Sta!es and Urban Areas
                                        36~0 SCltRIlVER AVENUR • MATHER, CA 95655
                                             (916)3-45-8506 • (916)845-3511 FAX




               The State of California’s Management of Urban Areas Security Initiative Grants
 

                              Awarded During Fiscal Years 2006 through 2008 


                                                      Page 54 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page 2

         will develop lheirown investments.lhe Urban Area investments must be included as part of the
         overall Stotllllpplication." These malerials were provided to the State by U.S. DlISlFEMA.

         To ensure that perfonnance goals are met and achicved for each project identified in the
         Fino.ncio.l Management Fonns Workbook, we have updated our Site Visit !"ann to include II
         section for documenting progress made in llchieving goals and objectives for each project. The
         Site Visit Fornlls referenced in our response to Recommendation # 11 IUld provided as
         Attachment F. Additionally, the Homeland Security Grants Section (HSGS) is inlhe process of
         developing a plan to ensure regular programmatic site visits will occur in the future. The plan
         shall allow Branch and Section Chiefs 10 manage visils and tmck completion of all reports.

         Increased Invutmcnl'Ovcrsigbl



         Establish and apply a meaningful review process designed to disclose lhe value and utility or
         proposed equipment and syslclIUI' during the Investment Justification review and the expenditure
         plan approval processes.

         Cal nMA Response
         We concur with this recommendation. As indicated in response MI, we will move forward with
         any meaningful review process orthe Investment JustifK:ations as directed by U.S. DHSlFEMA.

         Based on the outcome of a working group convened by the former Governor's Office of
         Homeland Security (OIlS) and eompri3Cd of a replUCnlative CJ'MS section of our 5ubgmnteu,
         wherein the resulting product was the Financial Management Forms Workbook (FMFW)
         currently in use today, we believe the FMFW is the appropriate means of authorizing and
         approving our subgrantee expenditures. This workbook is the basis of our sUbgrantee
         application, request for grdllt modification, equipment inventory, subgl'llntee budget, governing
         body approval, and the lluthorized agent verifications. We will consider incorporating into the
         FMFW, the kind of performance measures outlined in thc Government Pcrfonnance and Rcsulls
         Act liS discussed on page 8 of the audit report.

         RC«IlIImegd!ltlon IIJ
         Devdop and disseminate guidance to California Urban Areos Seeurily Initiatives specifying the
         importance of efficient and cost effective use of grant funds to improve first responder
         preparedness.




                                     ~SatR£VUAv£I'IUE· MATKEIt,CA9j655
                                         (916)14$·1506 • (916)I4H511 FAX




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                  Page 55 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page 3

         Cal EMA Response
         We concur with this recommendation. We will develop and disseminatc guidance to the
         California UASIs and all subgrantecs specifying the importancc of cfficient and cost effective
         use of grant funds to improve first responder preparedness.

         We also conducl miscellaneous grtUlt training workshops throughout the year, including grant
         application lind fiscal management. and we will eontinue 10 instNet our subgrantees on the
         importnncc ofthOI1OOve. By the end of201 0, we will have conducted approximately 73 training
         workshops. (Attachment A) We will also plaec the training materials on our websitc whcre it
         will be easily accessible to our subgrantees and will distribute the materials during the December
         2010 training workshops. Finally, we will utitil.e the: UASI Quarterly MeetinGs as an additional
         rcsouree for disseminating this infonnation.



         Ruommendallon #4
         In consultation with lhe Urban Areas security Initiative managers, identify process changes 10
         ac<:elerllte the grant lIward lIpprovai process to the Urban Areas Seeurity Initiative .ubreeipients.

         Cal EMA Rnoons
         We ooncur with this recommendation. We are in agreemem with FEMA's Program Guidance
         for the FY 2008 Homeland Security Grant Program (HSGP), wherein FEMA strongly
         encourages the timely obligation of funds from local units of government to Q(hcr s\lbgrantees. It
         should be noted that Cal EMA consistently meets its 45.day (previously 6O.day) timcline of
         passing through Homeland Security funds to the locals; however, we shall continue to work
         closely with Out stakeholders to accelerate the award process as needed. We willlliso continue
         to emphasize the importnnee of expcl"lding funds in a timely f3shion during our llpplielltion
         workshops and fiseal managementlraining sessions.
         A majority of the UASls are currently obligAting funds from loeal governments to other
         subgranlees in a timely fllShion. Unfortunlltely, the Slate of Cali fomi a's largest Urban Area,
         whieh also receives the Inrgesl UASI allocation, hM regular difficulty in meetinG this criteria.
         There is often a 12 - 16 month delay in reeeiving Board of SupelVisors and Mayor's Office
         approval to move fOl'Wflrd.

         In an attempt to expedile this process, the Los Angeles/Long Beach (LAlLB) UASI has
         developed a monthly ''Grant Sial" meetillg wherein decision makers meet on. regular basis to
         ensure all funds arc awarded and expended in a timely fashion. While this new focus of the
         LNLB UASlls geared towards allocating the funds to local projects in a reasonable amount of
         time. the LAlLB UASI is still requesting grant elttC1lsions on a regular basi, which prolongs the
         federal performance period for ailtbe state', subiflUltCCS.

                                      36SOS<:m.lliVEItA'>'ENUIi·MATHEa.,CA9)6"
                                           (916)""-150(;' (916)"".1'11 P,o,x




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                     Page 56 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1, 2010
         Page 4

         Reson1Dlendatlon US
         Establish II timeframe for the Urban Area to make grant funds available to subrecipients for
         future Urban Areas Security Initiative grants, cOllsis(ent with the experience of other Califomill
         Urbnn Arens Security Initiatives.

         Clll EMA Response
         We concur with this recommendation. As noted above. a majority of the ClIlifomia UASls
         obligtlte funds from local governments tu uther subgrlll1tces in 0 timely fashion. In coordination
         with Cal EMA, the VASls shall work together to develop Il reasonable time frame and to share
         "be.~t practices" during Ihe UASI Quanerly Meetings in lUI attempt to strcamline the allocation
         approval process (lOrn the local govenmlent entity.

         Recommendation U6
         Improve the oversight process for assuring Urban Areas Security Initiative compliance with the
         timeframes.

         Clll EMA Response
         We conem with this recommendation. Our program staff shall continue to improve the oversight
         process and will Wl:/l'k wilh the UASI managers to ensure all timclint:s IUld deadlines are met by
         the UASI jurisdictions. Program staff is in dllily contact with thcir respective subgrantecs, Rnd
         this constallt CQnunUIlication between UASI managers and Cal EMA program slaff can ensure
         that {imelines arc met or if an extension of the timcline is needed.

         Sustaining Cllpllbllitle! Withoul}'ederal Funding

         Recommendation 1/7
         Identify options for futlU"C funding plf\fl for the State's Fusion Centers that would provide for the
         COlltinuance of the Centers without long-term dependency on federal gra.nt funding.

         Cal EMA ReSPOnse
         We concur wilh Ihis recommendation. We will identify options available for sllstairuncnt
         f\lIIding for Fusion Centers. 'llIe State of Califomia, like many states across the nation, is in dire
         financial circumstances. Unfonunatcly, unless geneml or othcr funds IHe appropriated by thl:
         State Legislature, there is no active contingency plan in place to continue the Fusion Centers
         should homeland security ftmding be eliminated. We fully understand that the Homeland
         S«:urity grants are not "entitlement" funding; however, we IIlso acknowledge that the state will
         most likely be unable to sustain the Fusion Centers in the event funding be eliminated during
         fnlllllal federal appropriations. The sharing and dissemination of infonnation is II state and


                                      3650 SCllall!V~R AV~NU~ • M"'TlIER, CA 95655
                                          (916)145·8506' (916)845·R5111'"X




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                     Page 57 

Appendix C
State of California Management Comments on the Draft Report




         MlU1in W _O'Neill
         I.><:i.:ember 1,2010
         PageS

         natioMl priority And the establishment of the Fusion Centers was a priority of U.S. DHS/FEMA
         as well.

         Presently. sustainment costs arc not allowed for Fusion Centers. This issue needs to be
         addressed at the nationallcvcl, as the U,S, DHSIFEMA needs to gauge the importoJlce of the
         Fusion Centers and the Homeland Security program as a wholc. The state's limited re.'IOur~s are
         currently strelchcd to the breaking point. SO IlIly assistance from the fedcrellevel would be
         greatly appreciated.

         R«ommendlllllon #8
         Develop options identifying the long-lenn funding requirements for the interoperable public
         safely commwticalions systems being initiated 10 include:
         •      RcalifiK: aneumenls of state and local govemment resources available 10 complete IIlld
                sustain thele prognms.
         •      Identification offedcral financial support that may be necessary to complete and operate
                these systems, and
         •      Malting the completion of this plan a condition of future grant funds approval for the
                programs.

         Cal EMA Resooose
         We concur with this recommendation. We will work with the UASls to identify otncroptions
         available for sustahunent funding. We have also discussed with Urban Areas, who have adopted
         comprchcl\lIive pllllllltu replace or signilicanlly upgrade existing public service communication
         systems the importance of identifying Ihe long-term funding requirements for the interoper8ble
         comrnwtication projects within their respective jurisdiclion. At a minimum, these plans should
         include state and lOCal commitments to s\lstain such cosUy and important investments if federal
         fUlids were to diminish or not be available.

         Our program staff will continue 10 maintain OO)'-to-<la)' contact with the VASI managers to stay
         informed on such large-scale projeclll. We have requested milestolle dates be established and
         met (as part of the original grant award leller), and the UASI is required to submit a milestone
         extension request should an)' ofthcir goals not be mel.

         We will require the identification oflong-Icnn funding requiremenlll be mel tM:(ore fuillre grants
         lireawarded; however, for those systems nol expected to be operationll1 until 2016 this may
         result in delayed funding to certainjunsdietions.

         Reeommendation I!!
         Require the subgrantcc 10 address Iong-lerm sUSlalnabllil)' in their proposals aOO llpplialions ror
         grant funding.
                                       36SOSCHaEvtltAVEHUE'MATlIElt,CA9S6SS
                                           (916) &.is-ISQ6 • (916) &.is·as II FAX




             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                     Page 58 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         [)oc«mber 1,2010
         Pagc6

         Col EMA Response
         We concur with lhls recommendation. We will require subgrantec:s submit, along with Iheir
         Financial Managemetlt Form.s Workbook (FMFW), II narrative description outlining Ihar long-
         tenn sustainabilit)' requirements for projecl(S) anticipakd to extend past the federal perfonnance
         period of that particular gram year. We williiso review lhese plans and ensure lhey are
         rc:asonable long-tctm options for the proposed projc:c:l

         Monitoring or VASI Redpl,mls

         RtrommtndatioD /#10
         Commit sufficient resources to establish and implement policies and procedures for annual 00-
         site monitoring of Urban Areas Security Initiative grant recipients.

         Cal EMA Response
         We co'ICur with this recommendation. Despite limited resoUJ'CC5, and the fact that live percent
         (5"'.) management and administrative portion ofthc homeland security funding does not allow
         us to efficiently administer the federal grant progmms, we have developed Md implemented a
         subreceipicnt risk llS:iCSSment program that allows for the liscalllIId administrative monitoring of
         all grllIIts during the grant award period through either limited or extended.seope field andIor
         desk rcviews. All extendcd scope reviews are predicated upon" reimbursement made to lhe
         subrceipicnl. In addition, throughout the year the agency supplements its annual monitoring
         plan with a random selection ofsubrecipients to receive limited-scope payment reviews. This
         program ensures that we meet subrccipient monitoring requirements for all federal awards.

         We have attllehed our agency's FY2010/11 Monitoring Plan (Allaelunent B), QUI' Grants
         Monitoring Guide (Attachment C), am.I Chapler 7 of Our GrMts Manual on Assessing,
         Monitoring. and Mitigating Subrcceipient Risk. (AltllChment D)

         Uecommendlliion 1#11
         Require: thaL the on-site monitoring visits include evaluations oflhe recipients' overall
         management of the granb, including the progress made toward achIevement of program gOllls.

         Cal EMA Re~PQ!\~e
         We concur with this recommendation. As noted above, the flve percent (5%) mllllllgt:nx,:nl Wld
         adminiiwation allotment makes it difficult for us to efficiently administer the Homeland Security
         grants awarded to the State of California. Per the Office of MMllgement lind Budget (OMB)
         Circular A-133, Part 3·M, states that grantees are responsible for monitoring subgranlce use of
         federal awards through reporting, site visiu, regular contact Or other means. As mentioned
         arove,lhe agency's on-sile monitoring requirements are one way to meel this requirement.


                                      36S(l SCliRIEVU AVEHUI! • MATllI!Il, CA 9St155
                                           (916)145-8506 • (916)84S-'511 P.u-




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                     Page 59 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page 7

         Although the stale's limited resources make on-site visits difficult for program staff, we will
         continue to meet the OMD Circular requirement as indicated above by successfully submitting
         the Biannual Strategy Implementation Report (BSIR) in the Grants Repor1ing Tool (ORT), as
         well as regular contact with OUf subgrl\l'Jtees. Our Homeland Security Grant Seclion staff also
         submits a weekly status update to their superviror describing the weekly activities ofthc
         subgrantees. (Attachment E)

         Ollr Homeland Security GrWlts Section is in the process of developing a plan to ensure rllgular
         progmmmatic sitc visits occur. Program staff will conduct sile visits with our subgrantees to
         meet, discuss, and doeumcnt progress made lowards achieving progranl objectives and gonls.
         We have also updatcd the Site Visit Form to include the following: "For cllch projccl identified
         in the Financial Management Forms Workbook, how is your agency achieving the goals and
         objectives for this projcct." (Attachment F) We arc implementing an Excel Spreadsheet Site
         Visit Schedule, which, as mentioned above, shaH allow agency Branch Chiefs and Section Chiefs
         to manage visits and track completion of all reports.

         The GrlUlts Rep<.>rting Tool (OR1), FEMA 's on_line reporting system for homeland security
         funding, previously tracked subgmntee progress by asking what percentage the subgramee is
         completing projects. Por example, had a project rcaehed a twenty percent (20%) completion of
         projcct goals, forty percent (40%) completion ofprojcet goals, ete. The possibility of having
         FEMA reinstate this Module within the GRT may assist SAA's in detennining whether
         subgranlees have achieved specified program goals.

         Unreported and Unjustified Sole Source Procurements

         Rel;ommemlallon /#12
         Develop and provide to all Urban Areas Security Initiatives grant subgrantee managers, within 6
         months ofthi! report date, a comprehensive training program on Slate and federal regulations
         pertaining to competitive procurements.

         Cal EMA Response
         We concur with this recommendation. We will issue R Grant Management Memorandum
         (GMM) by December 31, 2010, outlining state, and federal regulations regarding competitive
         proeurements. The GMM also offers another excellent oppor1unity to specify the importance of
         efficient and cost effective usc of grant funds to improve first responder preparedness.
         Additionally, we will offer tllis training program during the Biannual Stmtegy Implementlltion
         Report (DSIR)/Finll.neial Management Workshops scheduled for December 2010. Finally, we
         will include this information on our agency'S website for futurc reference.




                                     3650 SCllRlI!VER AVENU/i • MATl!OR, CA 95655
                                          (916)845·8306' (916)843-8511 FAX




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                   Page 60 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         [)e(:cmber I, 2010
         PageR

         Recommendation Hl3
         Prepare, publish and disseminate Il guide dctlliling procurement n:gulutions for FEMA IIwards to
         all California municipal and county purehaslng dcpanmcllls that are acquiring equipment or
         services with Homeland Security gmnt flUIds.

         Cal    SMA ResPollse
         Wc concur with this recommcndation. The Code of Federal Regulations (CFR) Title 44 § 13.36,
         provides unifOnll administrative requircmcnlS for grams and cooperative agreements awarded to
         state and local govenunents. These regulations dircclll\c slate and local governments 10 use
         their own procurement procedures, which rencet applicable state and local laws and regulations,
         provided lhe procedwes confOnll at a minimum to applicable federal procurement regulations.
         We will provide to lhe UASI managcn.1I.S part oflhe Grants Management Memorandum
         mentioned in Rccommcn<lIulon Nllllbove, a guide detailing procurement reeuilltions for FEMA
         awards for distribution to their respective municipal or county pun::hasing department.

         We will address the subgrantce procurement requirements by requiring subgrantces to complete
         and submit. cost benefit analysis with the sole source request form. We have also developed
         proccdwes to cnsure the HSGS program representatives review all sole SOt.ll'CC request f'ofrm for
         content and completeness. We will also follow-up with subgrantees for additional clarifICation
         when needed to ensure adequate justification is provided.

         Additionally, we will continue to require the subg.rantec 10 self-cenify that all grant related
         purchases were competitive. The Mooitoring Division, during desk reviews and on-site visits,
         will review the subreccipicnt procurement procedures to cn~ure they meet the minimum
         requirements as set forth in CFR 44.

         Recomml,il\l.la!ion #14
         Complete a review of all grant fundcd pun::hases exceeding $1 00,000 to identify those made as
         solo lIO\lrCO procurements and:
         •     Vcrify that State approval was obtained, sole source procurement was justified, and lhe price
                   documented as fair and reasonable,
               ....'lI:S
         •     DIsallow all procurements that fail to meet these requirements, and
         •     Freuc all procurements for Urban Area that has granted a waiver from using advertised
               procurements until it agrees to adhere to federal grant procurement requirements.

         Cal EMA Response
         We partially concur with this rcconunendation. Due to the level of time commitment and staff
         hoUl'l needed to handle this recommendation, we life unable 10 complete a review of.lI 8rant-
         funded purehase.s exceeding SIOO,OOO to identify those made as soie SOt.ll'CC procurements. Cal

                                       3650 SOfIlEVElt AV'£NUf: • MArnEll, CA 956SS
                                           (916) 10-U06 • (916) I4S-I3I 1 1"..0:




             The State of California’s Management of Urban Areas Security Initiative Grants
 

                            Awarded During Fiscal Years 2006 through 2008 


                                                      Page 61 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page 9

         EMA divisions and branches arc currently understllffed, and the present stlltewide "hiring freeze"
         pr¢v<:nls Ollr agcncy from lidding personnel 10 our IIgeney. We will addrcss the inuc by revising
         Qur Requcst fQr Sole Source Pmcuremcnt AuthoriZlllion Form (Attochmenl 0) 10 require II
         cosl!bcnefit analysis be attached to the fonn.

         Reeommemlallon HIS
         For future grtlllt yel:lIS, disallow any procurementllclions lhailire not in compliance Wilh federal
         regulll.tiolls.

         Cal EMA Rnooosc
         We concur with this recommendation. We will revise our Financial Management Fonn,
         Workbook (FMFW) reimbursement Jtqucst to include the following, "Old thIs purchase eJ(ceed
         $100,000 and did it involve a sole sowce procurement?" Additionally, we will develop II policy
         that enables program Itaffto disallow sole lIOI.IlCC requests not pre.approved by Cal EMA. It
         shook! be noted that tbc discussion of Sole Source Requests is included in ..Section V:
         Procurement" of tile Site Visit Form.

         The Monitoring Division will also perfonn a random sampling ofthesc reponed purchllSC$ to
         ensure federal procurement guidelines were followed and the costs reimbutse<l W'Cre properly
         supponed. Any costs identified by the Monitoring Division and!Qr program staff to be ineligible
         will be disallowed.

         Internal Controls over Reimbursemeots

         Resommembtinn #16
         Strengthen internal controls over Urban NeIlS Security Initilltive grant expendit\lTe
         reimbursements for example, through reviews of purchase orders, Invoices, and delivery receipts.

         Cal BMA RcsPOnsc
         We concur with this recommendation. To strengthen intcrnlll controls over grant expenditures,
         we Me considering a sampling of source documentation prior to reimbursing subgrantecs. A
         review and verification of a sampling of source doewnentation would provide adequate
         tlssurance thai grant expenditures are allowable. allocable, authorized IIIld consistent with federal.
         Stale and gltUlt ccquirements.




                                      36.50 5a«EVEA A VDIUI! • MAntER, CA 9S6~~
                                          (916) "'~".506   . (916)   "'S-'~ll   FAX




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                     Page 62 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page 10

         Management of Cuh Advances

         Rccommsnd!tllon IH7
         Establish policies lind procedures to ensure that ellSh advances 10 subgrantees are only provided
         based on inuncdillte disbursement requiremenls and that procCdurcslIfe in place to minimize the
         lime needed 10 expend these funds.

         Cal EMA Response
         Please see response 10 Recommendlltioll 11'19 below.

         Recommendation #18
         Require sub&rantees to return fwxls adVMllCed if not cxpended mthin 120 days orthc adVllDCC
         being provided.

         Cal   EMA RcSDQllK
         Plea."c see response to Recommendation 119 below.

         RefO'ommendal!on #19
         Require subgranteell 10 track accrued interest on eash advances, remit the interest earned in
         accordance with requirements to FEMA, lind report the interest earned on the FinlUleial Status
         Reports.

         Cal EMA Response 19 Recommendation 11'17, #18@ndNI9
         We concur with these rccommendations. In April 2010, the Cal SMA Homeland Security Grants
         Proce~~ing (HSGP) Branch established the following procedures to ensure that all cflsh advances
         follow federal rey;ulalions:

               •   All subgrantecs are notified via email when Cal EMA approves their cash adv/UlCC
                   request.
               •   Subgrantccs are instructed to deposit cash advances into an interest bearing account.
               •   Cash advances must be expended within 120 days of receipt or the advance must be
                   returned to Cal EMA.
               •   SubgrlUlteelil must track the interest eamed on the cash advance.
               •   Any intere:lt in excess 0($100 per year must be remitted at least quarterly (0 Cal EMA.
               •   Cal EMA will report the interest camed on the quarterly Financial Status Reports and
                   remit to FEMA.



                                       3650 SOiaEV£~ AvaflJ£ • MAnlEfl.. CA 9S6S5
                                           {911S}14S·&S06· (911S)&U·&5II fAX




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                     Page 63 

Appendix C
State of California Management Comments on the Draft Report




         Martin W. O'Neill
         December 1,2010
         Page II

         Whcn a subgrantee requests a cash advance. the amount and date of the cash advance is recorded
         in a log. A calendar reminder is set for 90 days from that date. At the 90-day reminder date, an
         e-mail is forwarded to the program specinlist to contact the sub grantee to confirm that the cash
         advance was deposited into an interest bearing account and that the interest is being tracked. The
         progmm spechtlist also confinns that the cash advance will be expended prior to the 120-day
         time limit or be returned to elll EMA. The subgrantee is responsible for remilling to Cal EMA
         any interest earned over $100 per year, This procedure is verified during the site nndior
         monitoring process.

         On behalf of Cal EMA, and our dedicated team, we thank you and the Department ofHomcland
         Security, Office ofInspcctor General, for the review of the Urban Areas Security Initiative grant
         funds. Wc look forward to reviewing your final report and continuing our efforts to strive for the
         most effective, efficient Ilnd economical operations. If yOll hltve any questions, please feel free
         to contnct my Chief ofStalT, Helen Lopez at (916) 323-761 S.

         Sincerely,




         MATIHEW R.
         Secretary

         Enclosures




                                     3650 SCIIRmvER AVP.NUR • MATlIER, CA ~56SS
                                         (916) 84~-8S06 • (916) 845-8511 FAX




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                                   Page 64 

Appendix D
Organization Chart




          The State of California’s Management of Urban Areas Security Initiative Grants
 

                         Awarded During Fiscal Years 2006 through 2008 


                                             Page 65 

Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate (Not Draft Report)




           The State of California’s Management of Urban Areas Security Initiative Grants
 

                          Awarded During Fiscal Years 2006 through 2008 


                                              Page 66 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
